<html>
<title> - NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 111-129]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-129
 
                          NATIONAL PARKS BILLS

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 635         S. 1418

                           S. 715         H.R. 2330

                           S. 742         H.R. 2430

                           S. 1270


                               __________

                             JULY 22, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
53-002                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     3
Cantwell, Hon. Maria, U.S. Senator From Washington...............     3
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    13
Lindquist, Kirk L., Member, Michigan Lighthouse Project and Past 
  President, Michigan Lighthouse Fund, Okemos, MI................    30
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Walter, Greg, Jefferson State Financial Group, Cave Junction, OR.    26
Wenk, Dan, Acting Director, National Park Service, Department of 
  the Interior...................................................     6
Wyden, Hon. Ron, U.S. Senator From Oregon........................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    45


                          NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, JULY 22, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Following up on last week's hearing, the Subcommittee on 
National Parks meets this afternoon to consider several bills. 
Although I understand a couple of the bills may require 
additional discussion and review, I believe most are 
noncontroversial.
    The bills on today's agenda include: S. 635, which 
designates a segment of the Illabot Creek--I will let Senator 
Cantwell clarify my pronunciation--in Skagit County, 
Washington, as a component of the National Wild and scenic 
River System; S. 715, to establish a pilot program to provide 
for the preservation and rehabilitation of historic 
lighthouses; S. 742, to expand the boundary of the Jimmy Carter 
National Historic Site in the State of Georgia and to 
redesignate the site as a National Historical Park; S. 1270, to 
modify the boundary of the Oregon Caves National Monument; S. 
1418 and H.R. 2330, to direct the Secretary of the Interior to 
study the suitability and feasibility of establishing Camp Hale 
in Colorado as a unit of the National Park System; and H.R. 
2430, to direct the Secretary of the Interior to continue 
stocking fish in certain lakes in the North Cascades National 
Park and other National Park Service sites in Washington State.
    I would like to take a minute to discuss the Camp Hale 
study bill, which I have sponsored, along with Senator Bennett. 
We also have the House-passed bill before us, which Congressman 
Lamborn has championed. Camp Hale, which is located in the 
mountains of central Colorado was a facility that trained a 
number of soldiers for combat in high alpine and mountainous 
conditions. Principally it was a training venue for the Army's 
10th Mountain Division and other elements of the United States 
Armed Forces. The geography of the area was vital for winter 
and high altitude training with steep mountains surrounding a 
level valley suitable for housing and other facilities.
    Between 1956 and 1965, the camp was also used by the 
Central Intelligence Agency as a secret center for training 
Tibetan refugees in guerilla warfare to resist the Chinese 
occupation of their mountainous country.
    In July 1965, Camp Hale was deactivated and control of the 
lands was returned to the Forest Service in 1966.
    Today the camp is part of the White River and San Isabel 
National Forest.
    It is an important part of our Nation's proud national 
defense legacy and it deserves to be recognized and protected. 
The area's historical significance has already been recognized 
as Camp Hale was included in the National Register of Historic 
Places in 1992. But I think it is appropriate to conduct a 
study to assess whether the area should be incorporated into 
the National Park system. The people, understandably, who 
trained at Camp Hale are proud of their accomplishments and I 
am certainly proud to join Representative Lamborn and Senator 
Bennett in recognizing the historical significance of their 
work through this legislation.
    Although the bill calls for the study to be conducted by 
the National Park Service, it is important to note that the 
lands are currently managed by the Forest Service. When we 
asked the agencies to comment on these bills, we inadvertently 
forgot to ask the Forest Service for its official comments on 
the bill. To remedy that, I will be sending a letter asking for 
the agency's official comments for the hearing record. Of 
course, the Forest Service witness is free to make any comments 
today on the bill if he desires.
    With that, I would like to recognize the ranking member, 
Senator Burr, from the great State of North Carolina.
    [The prepared statement of Senator Murray follows:]
Prepared Statement of Hon. Patty Murray, U.S. Senator From Washington, 
                               on S. 635
    Chairman Udall and Ranking Member Burr, I would like to thank you 
for holding today's hearing on S. 635, legislation which would amend 
the Wild and Scenic Rivers Act to designate 14.3 miles of Illabot Creek 
in Skagit County, Washington, as part of the National Wild and Scenic 
Rivers System.
    This legislation is the result of a collaborative process, and is 
supported by a wide range of community stakeholders including local 
elected officials, environmentalists, fishermen, and agriculture 
organizations.
    Illabot Creek flows from an elevation of almost 7,500 feet in the 
Glacier Peak Wilderness Area in the Cascade mountains into the upper 
Skagit River.
    Salmon are a way of life in Washington state and their protection 
is critical to our heritage, our culture, and our economy. The creek's 
free-flowing waters provide critical spawning habitat for the wild 
Chinook salmon, steelhead and bull trout, all federally listed as 
threatened, as well as pink, coho, sockeye and chum salmon. The mature 
and old growth forest along the creek also provides valuable habitat 
for many wildlife species including bald eagles.
    I want to thank Congressman Rick Larsen, who led this effort by 
introducing legislation in the House. I would also like to thank 
Senator Maria Cantwell, who is a co-sponsor of the bill introduced here 
in the Senate. I look forward to working with the Committee and my 
colleagues to protect this crucial habitat for salmon, bull trout, 
eagles and other species while preserving recreational opportunities, 
such as hunting and fishing, for future generations.
    Mr. Chairman and Ranking Member, thank you again for holding this 
hearing on S. 635, and for the opportunity to provide this testimony.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I am not exactly 
sure why you stared at me on the CIA piece. Maybe you know what 
I do every afternoon.
    Good morning. Thank you, Mr. Chairman. Thank you for 
convening this hearing before the National Parks Subcommittee. 
It has only been a week since our last National Parks 
Subcommittee hearing, but we have another full agenda today. 
The first set of bills covered in this hearing reflects the 
broad objectives of the National Park Service and, more 
importantly, this subcommittee.
    One bill, in particular, caught my attention, S. 715, the 
lighthouse preservation grants bill. The bill would seek to 
provide maintenance funding to non-Federal entities who 
volunteer to acquire lighthouses from the Federal Government. I 
am fairly familiar with this program. While I strongly support 
the preservation of lighthouses, the bill concerns me since it 
would appear to go against the intent of the underlying law, 
the Lighthouse Preservation Act. In fact, in the Lighthouse 
Preservation Act, there was a reversion clause. The reversion 
clause basically reverted ownership back to the Coast Guard if 
the nonprofit entities or communities chose not to maintain the 
maintenance of them.
    There is nobody that has supported any more than I have 
especially nonprofit entities who choose to take on the 
responsibility of the historic nature of preserving 
lighthouses. Though, when we passed that preservation act, it 
did not extend also our ongoing commitment to maintain, to 
underwrite the maintenance of those lighthouses.
    So I can only speak for myself, Mr. Chairman. I look 
forward to hearing more about this, but I have a major problem 
with the belief that we can give this to an entity and then 
turn around and be asked to fund the maintenance of a non-
Federal asset. So I look forward to hearing from out witnesses 
today, and to hearing their testimony.
    Senator Udall. I thank the ranking member for his comments.
    Let me turn to Senator Cantwell. Hopefully, she will 
correct my pronunciation of Illabot Creek.
    Senator Cantwell. Illabot. Thank you, Mr. Chairman.
    Senator Udall. Thank you.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I would like to 
thank you and the ranking member both for holding this 
important hearing today on legislation that we are considering, 
and I would like to talk about two of those pieces of 
legislation, a bill to designate Illabot Creek in Skagit County 
as a Wild and Scenic River and a bill to clarify the Park 
Service's authority to stock fish in certain high mountain 
lakes in the North Cascades National Park.
    First, I would like to talk about why designating part of 
Illabot Creek in Skagit County as a Wild and Scenic River is so 
important to Washington State. Senator Murray and I introduced 
this legislation to designate 14.3 miles of a segment of 
Illabot Creek as part of the National Wild and Scenic Rivers 
system. If enacted, this will ensure protection of its 
important fish and wildlife habitat while also maintaining the 
recreation opportunities such as fishing and hunting.
    The Skagit River watershed supports one of the largest 
wintering bald eagle concentrations in the lower 48 States, and 
because of this abundance of salmon and high quality habitat, 
Illabot Creek is the center of bald eagle foraging activity in 
this area.
    The legislation being proposed is a result of a 
collaborative vetting process that involved local stakeholders 
and community members, including public land agencies and local 
county governments and private forest landowners. The 14.3-mile 
proposed designation has gained significant support through 
these efforts of outreach.
    The proposed designation runs from the headwaters to the 
county-owned right-of-way to a bridge at Rockport Cascade Road. 
While we considered including the final 2 miles to the 
confluence of the Skagit River, this was excluded after a 
vetting process because of concerns from local officials. So 
the designation of the upper 14.3 as Wild and Scenic, in 
addition to conservation easements already in place on private 
lands in the lower 2 miles, will ensure that the free-flowing 
waters of the significant fish and wildlife habitat are 
maintained for generations to come.
    The second bill the committee is considering would clarify 
that the Park Service authority to allow the Park Service the 
authority for fishing stock in the North Cascades National 
Park. The North Cascades contains over 245 mountain lakes, of 
which 91 have been historically stocked with fish. In some 
cases, the stocking of fish in these lakes dates back to the 
1800s. For decades, volunteers, working with the State of 
Washington, have stocked trout in a number of lakes in this 
area and under carefully constructed management plans written 
by the Park Service biologists.
    In addition, congressional consideration of the creation of 
the North Cascades National Park indicated that fish stocking 
would continue. The legislation creating the park even 
identified fishing as an important recreational use.
    When questions were raised about environmental impacts of 
fish stocking, the Park Service prepared an EIS on the 
fisheries in the mountain lakes, and this included a 12-year 
scientific research project conducted by Oregon State 
University. The preferred alternative selected in the Park 
Service final record of decision is to allow continued fish 
stocking in 42 lakes where the agency has concluded there would 
be no adverse impact on native ecosystems. In its report, the 
Park Service also requested explicit authority to allow fish 
stocking to continue within the park.
    So I have heard from many of my constituents in and around 
the North Cascades National Park, and they want the fish 
stocking to continue. Many tourists visit the park for its 
scenic beauty as well as its fishing opportunities, making the 
fish stocking an important component of our North Cascades 
National Park system throughout the State of Washington to our 
economy.
    I have also heard from constituents who are concerned about 
the potential impacts of continued fish stocking. So I am 
looking forward to hearing from the Park Service on how 
allowing fish stocking would work and allow for no adverse 
impacts on our native ecosystem.
    So I thank the chairman for having both of these bills on 
the docket. I look forward to hearing the testimony of the 
Department of the Interior and others on these issues.
    Senator Udall. Thank you, Senator Cantwell.
    We have been joined by Senator Wyden. Senator Wyden, would 
you like to make an opening statement?

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing.
    I am very pleased that today we are going to be looking at 
S. 1270, legislation that I have introduced to expand the 
boundary of the Oregon Caves National Monument. We very much 
thank you for holding the hearing.
    Particularly, we want to welcome and thank Greg Walter for 
making the trek back here from Cave Junction. In addition to 
running his own business, Mr. Walter is a member of the 
Illinois Valley Community Development Organization, and he is 
doing a lot of good work to advance the community's quality of 
life.
    The legislation that I have introduced would expand the 
monument boundary by 4,070 acres to include the entire Cave 
Creek watershed, management of which would be transferred from 
the United States Forest Service to the National Park Service. 
Expanding the boundary would allow for better protection of the 
stunning majesty of both the underground caves and the above-
ground treasures found at the monument.
    Because the current 480-acre boundary is insufficient to 
adequately protect the cave system and its water quality, the 
Park Service has formally proposed a boundary modification 
numerous times, first in 1939, then again in 1949, and most 
recently in 2000.
    The Oregon Caves National Monument makes an extraordinary 
contribution to southern Oregon's economy and to the national 
heritage. The monument receives over 80,000 visitors annually 
and is the second smallest unit of the National Park System. A 
larger monument boundary would help us showcase more fully the 
recreational opportunities on these lands within the proposed 
monument boundary and provide visitors more chances to enjoy 
them. I feel very strongly that recreation is a special 
economic engine for Oregon, and I certainly want to see the 
opportunities that would come about through a larger monument 
boundary for additional recreational opportunities.
    Now, my legislation would additionally designate at least 
9.6 miles of rivers and tributaries as Wild and Scenic or 
recreational, including the first subterranean Wild and Scenic 
River, the River Styx.
    This bill would also provide authorization for the 
voluntary retirement of existing grazing allotments. The 
current grazing permittee, Phil Krauss and his family, had the 
Big Grayback grazing allotment, which is over 19,000 acres 
since 1937. Mr. Krauss now favors lease retirement and private 
compensation for his allotment. My bill would allow a local 
solution to go forward to protect the monument resources.
    Only a couple of other points, Mr. Chairman and colleagues. 
We have got to particularly get the Forest Service on track to 
make sure that this special treasure has the protection that is 
needed. Again and again, we have seen a failure to cooperate 
with respect to steps that are needed to protect the monument's 
resources.
    Today the Forest Service asks for yet more time to figure 
out a way to work cooperatively with the Federal partners. They 
say that no coordinated study or formal dialog has occurred 
between the Departments to discuss expansion. Yet, this 
proposal has been discussed for years, and a hearing was held 
on similar legislation a year ago and the Forest Service asked 
for time to discuss this with the Park Service then. But the 
testimony that we are getting today indicates that Forest 
Service has not even utilized the last year to fully tap the 
opportunities for interagency cooperation.
    So we have got to, in this committee, stay at this, Mr. 
Chairman. I look forward to working with you. I note my friend 
from North Carolina who gave me that glowing, glowing 
introduction this morning when I came to the Veteran Affairs 
Committee. But we are going to work on this in a bipartisan 
way.
    I will close simply by saying thank you to the great 
volunteers and supporters in the local business and 
conservation community in southern Oregon, to Phil Krauss for 
his commitment to Oregon's natural resources, to Craig 
Ackerman, the former superintendent of the Oregon Caves 
National Monument, and all of my colleagues in the Oregon 
congressional delegation, Senator Merkley, who was a cosponsor 
of the bill, of course, my partner here in the Senate, and 
colleagues in the other body, Representatives DeFazio, 
Schrader, Blumenauer, and Wu, who have introduced the companion 
legislation.
    So, Mr. Chairman and colleagues, thank you very much. This 
is an important day for our State and to have Greg Walter 
having made that long trip across the country is an indication 
of how strongly my constituents feel about S. 1270 that would 
let us finally expand the boundary of the Oregon Caves National 
Monument.
    Senator Udall. Thank you, Senator Wyden.
    If the two administration witnesses would come forward and 
join us at the table, we will move right to your testimony. We 
have been joined by Daniel Wenk, who is the Acting Director of 
the National Park Service, and Joel Holtrop, who is the Deputy 
Chief of the National Forest System. Thank you both for being 
here.
    Mr. Wenk, why do we not start with you? Same time, same 
place. Great to have you back on the Hill. Thank you.

STATEMENT OF DAN WENK, ACTING DIRECTOR, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman. Thank you for this 
opportunity to appear before this subcommittee to present the 
Department of the Interior's views on the five bills on today's 
agenda. I would like to submit our full statements for the 
record and summarize the administration's positions on these 
bills.
    S. 715 would establish a 3-year pilot program to provide 
financial assistance to nonprofit organizations, States, or 
local government entities for the preservation and 
rehabilitation of historic lighthouses.
    The Department was not able to determine a position on this 
legislation in time for this hearing. We will provide our 
position in a letter to the committee in the very near future.
    S. 742 would expand the boundary of Jimmy Carter National 
Historic Site in Georgia and redesignate the unit as a National 
Historical Park.
    The Department supports enactment of S. 742. This 
legislation would authorize the addition of several properties 
to the Jimmy Carter Historic Site that would help broaden 
public understanding of the life and work of President Carter 
and enhance the visitor experience in Plains, Georgia.
    The redesignation of this site as a National Historical 
Park is appropriate for a unit of the National Park System that 
has multiple, noncontiguous sites as this unit has.
    S. 1270 would adjust the boundary of Oregon Caves National 
Monument to include the addition of approximately 4,070 acres 
as a national preserve to the existing monument. The lands that 
would be added are currently managed by the United States 
Forest Service as part of the Rogue River-Siskiyou National 
Forest.
    The Department supports the intent of this bill as 
consistent with the general management plan for the park, but 
recommends deferring action on the bill to give us the 
opportunity to continue exploring ways to maintain interagency 
coordination. The Department of the Interior and Department of 
Agriculture look forward to reporting back to the committee on 
these discussions within 6 months.
    S. 1418 and H.R. 2330 would direct the Secretary of the 
Interior to carry out a study to determine the suitability and 
feasibility of establishing Camp Hale in Colorado as a unit of 
the National Park System.
    Camp Hale was established to provide winter and mountain 
warfare training during World War II. It is currently managed 
by the United States Forest Service as part of the White River 
National Forest and used for public recreation.
    The Department supports this legislation with amendments to 
include the United States Forest Service in the study and to 
remove the section dealing with water rights, which is, we 
believe, unnecessary.
    H.R. 2430 would direct the Secretary of the Interior to 
continue stocking fish in certain lakes in North Cascades 
National Park, Ross Lake National Recreation Area, and Lake 
Chelan National Recreation Area.
    The preferred alternative in the park's 2008 fishery 
management plan would allow stocking of non-reproducing fish at 
low densities to continue in up to 42 lakes, subject to 
additional monitoring. However, this action requires 
legislation.
    The Department does not oppose this bill, but we would like 
to work with the committee on amendments to the bill. The 
National Park Service is interested in ensuring that the 
legislation is guided by science and an understanding of the 
impact that such policies would have on park resources.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer questions that you or members of the 
committee may have.
    [The prepared statements of Mr. Wenk follow:]
    Prepared Statements of Dan Wenk, Acting Director, National Park 
                  Service, Department of the Interior
                                 s. 715
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 715, a bill to create a pilot program 
to provide for the preservation and rehabilitation of historic 
lighthouses.
    The Department was not able to determine a position on this 
legislation in time for this hearing. We will provide our position in a 
letter to the committee in the near future.
    S. 715, titled the National Lighthouse Stewardship Act of 2009, 
would amend the National Historic Preservation Act of 1966 (16 U.S.C. 
470w et seq.) to create a three-year pilot program to provide financial 
assistance to non-profit organizations, States, or local government 
entities, for the preservation and rehabilitation of historic light 
stations, a significant component of our nation's maritime history. The 
proposed bill would bolster the effort to preserve these historic 
maritime structures already underway through the National Historic 
Lighthouse Preservation Act of 2000 (NHLPA). In addition, the bill 
would also provide financial resources and technical advice to the 
stewards of historic light stations.
    Lighthouses are historic aids to nautical navigation and many are 
found in remote locations and all have an exposure to the extremes of 
weather. Such exposure promotes the deterioration of the historic 
fabric of the light station. And, the fact that these light stations 
have not been manned by the U. S. Coast Guard in decades has 
accelerated their rates of deterioration.
    Under the NHLPA, the value associated with historic light stations 
is recognized by allowing them to be transferred at no cost to Federal 
agencies, state and local governments, nonprofit corporations, 
educational agencies, or community development organizations. The 
National Historic Lighthouse Preservation Act of 2000 provides a 
mechanism for the disposal of historic light stations. Entities that 
receive light stations must make them available for education, park, 
recreation, cultural, or historic preservation purposes and provide 
public access. The program is a successful partnership among the U. S. 
Coast Guard, the General Services Administration, and the National Park 
Service. Forty-four historic light stations have been transferred 
through NHLPA to governmental agencies or community organizations that 
have agreed to take on the daunting task of preserving and maintaining 
these historic structures for the public good. These groups have 
stepped forth to preserve these icons of American history, which is no 
small commitment of both volunteer hours and private financial 
resources.
    Mr. Chairman, we look forward to communicating with you about this 
bill after we have the opportunity for further consideration of its 
implications.
                                 s. 742
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 742, a bill to expand the boundary of 
the Jimmy Carter National Historic Site, to redesignate the unit as a 
National Historical Park, and for other purposes.
    The Department supports enactment of S. 742. This legislation would 
authorize the addition of properties to the Jimmy Carter historic site 
that would help broaden public understanding of the life and work of 
President Carter and enhance the visitor experience in Plains, Georgia.
    Legislation authorizing the establishment of the Jimmy Carter 
National Historic Site and Preservation District was enacted in 1987 to 
preserve the key sites and structures associated with President Jimmy 
Carter during his life, provide for the interpretation of the life and 
presidency of Jimmy Carter, and present the history of a small rural 
southern town. The historic site consists of President Carter's boyhood 
home in the community of Archery, Plains High School, the Plains depot, 
and the Carter compound, where President and Mrs. Carter reside. The 
site also includes 100 feet of scenic easements along both sides of Old 
Plains Highway west of Plains. The preservation district consists of 
the Plains Historic District, Bond Street, and 650 acres of 
agricultural lands within which the Secretary is authorized to acquire 
easements to protect the scenic values of the community around the 
historic site.
    President and Mrs. Carter both grew up in and around Plains. Except 
for time spent in college, the Navy, the Georgia governor's mansion, 
and the White House, the Carters have made their home in Plains, where 
they continue to be very engaged in community affairs. In large part 
because of the historic site and preservation district, the town of 
Plains and its environs, a community of about 700 people, looks much 
the same today as it did during the earlier years of the Carters' 
lives. We believe the boundary changes proposed in S. 742 are 
consistent with President and Mrs. Carter's vision for Plains as both a 
modest hometown of a U.S. president and a community that has preserved 
the history of life in a small, southern agricultural community in the 
early to middle years of the 20th century.
    S. 742 would include several new areas to the boundary of the Jimmy 
Carter National Historic Site. Of critical importance to the National 
Park Service would be the addition of properties in the vicinity of the 
Carter residence that, if acquired, would serve an immediate park need. 
One of these properties would be appropriate for relocation of the 
park's maintenance and curatorial facilities. The maintenance division 
for the park is currently housed in a dilapidated structure built by 
high school students in the 1950's on the grounds of the former Plains 
High School. Adjacent to the structure is an unsightly maintenance 
yard, where trucks, tractors, lawn mowers and other equipment is stored 
and refuse is temporarily held. The curatorial storage facility is 
located next to the maintenance building. It was meant to be temporary 
and is inadequate for processing and storing important historical 
records and artifacts. Neither the maintenance yard nor the temporary 
curatorial facility fit with the historic character and qualities of 
the former school, which is now the park's visitor center, or with the 
center of Plains generally.
    The bill would also add to the park boundary several other 
properties, including:

  <bullet> The Billy Carter Service Station Museum at 104 West Church 
        Street, the site of the iconic gas station operated by 
        President Carter's brother during the Carter presidency. The 
        museum is currently owned and operated by the Plains Better 
        Hometown Group, a non-profit organization that assists 
        community development.
  <bullet> The property at 147 Old Plains Highway, known locally as the 
        ``Haunted House.'' This house is recognized as the oldest home 
        in Sumter County and was the residence of President Carter and 
        his family after he left the Navy.
  <bullet> The Georgia Welcome Center on State Route 280/27, a state-
        owned facility that was built to accommodate visitors to 
        Plains; and
  <bullet> Two corridors of land no wider than 50 feet each between the 
        Georgia Welcome Center and the President Carter boyhood home, 
        which could be used for multi-use trails. The trails, running 
        along each side of the Southwest Georgia Railroad lines that 
        stretch along the same corridor, would connect a new campground 
        proposed for the current Georgia Welcome Center property, the 
        city of Plains and the boyhood farm.

    The National Park Service anticipates that there would be no 
acquisition costs for the Georgia Welcome Center, the Haunted House, or 
the Service Station museum. We do not yet have cost estimates for the 
acquisition of the other properties, or for the maintenance and 
operation of any of these properties, but plan to estimate these costs 
in the near future. All funds for such activities would be subject to 
National Park Service priorities and the availability of 
appropriations.
    S. 742 would also change the designation of the historic site to 
the Jimmy Carter National Historical Park. This proposed designation is 
appropriate for a unit of the National Park System that has multiple, 
non-contiguous sites, as does the Jimmy Carter National Historic Site. 
With the addition of the properties authorized for acquisition under 
this bill, the designation of ``national historical park'' would be 
even more apt than it is today.
    Finally, the bill includes references for a map that would depict 
the revised boundary of the park. We will provide this boundary map to 
the committee in the near future.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or any members of the Subcommittee 
may have.
                                s. 1270
    Mr. Chairman and members of the committee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1270, a bill to modify the boundary of Oregon Caves National 
Monument, and for other purposes. The Department supports the intent of 
S. 1270 as consistent with the General Management Plan (GMP) for the 
park, but recommends deferring action on the bill to give us the 
opportunity to continue exploring ways to maintain interagency 
coordination. DOI and USDA look forward to reporting on these 
discussions within 6 months. S. 1270 would adjust the boundary of 
Oregon Caves National Monument to include the addition of approximately 
4,070 acres to enhance the protection of resources associated with the 
monument and to increase quality recreation opportunities. The lands 
that would be added are currently managed by the U.S. Forest Service as 
part of the Rogue-Siskiyou National Forest. S. 1270 would designate 
approximately 7.6 miles of these waterways as wild, scenic, or 
recreational under the Wild and Scenic Rivers Act, including the first 
subterranean designated waterway in the country, the River Styx, which 
flows through the caves as a ``recreational'' river. S. 1270 provides 
authority for the Secretary to protect the water quality--in the caves 
and for public consumption--and to administer the lands in accordance 
with current laws and regulations. The Secretary is also directed to 
carry out ecological forest restoration activities that would establish 
a fire regime, manage revegetation projects, and reduce the risk of 
losing key ecosystem components. The land that this bill would transfer 
is categorized by the U.S. Forest Service as condition class 3--high 
risk of fire. Most of it is also designated as Late Successional 
Reserve under the Northwest Forest Plan. We understand that the Forest 
Service is currently working on a multi-year effort to reduce fuels 
under a comprehensive forest plan which is intended to help restore the 
appropriate role of fire in the entire ecosystem, which in turn would 
benefit monument resources that are at risk from fire and fire 
suppression damage. The bill also requires the Secretary to accept any 
grazing lease or permit that is donated by a lessee or permittee and 
further requires that no new leases or permits be granted.
    In 1907, the Secretary of the Interior withdrew approximately 2,560 
acres for the purposes of establishing a national monument. The 1909 
presidential proclamation establishing Oregon Caves National Monument 
included only 480 acres. The monument was managed by the U.S. Forest 
Service until its administration was transferred to the National Park 
Service in 1933. The remaining withdrawal outside of the monument is 
administered by the USFS as part of the Rogue-Siskiyou National Forest. 
S. 1270 restores these lands to the original monument boundary. The 
explorer Joaquin Miller extolled ``The Wondrous marble halls of 
Oregon!'' when speaking about the newly proclaimed Oregon Caves 
National Monument in 1909. Oregon Caves is one of the few marble caves 
in the country that is accessible to the public. This park, tucked up 
in the winding roads of southern Oregon, is known for its remoteness, 
the cave majesty and unusual biota. The stream flowing from the cave 
entrance is a tributary to a watershed that empties into the Pacific 
Ocean. There are no human-made obstructions that would prevent salmon 
migration, which makes this the only cave in the National Park Service 
with an unobstructed link to the ocean. The caves are nationally 
significant and a favorite visit for school kids and travelers alike. 
They remain alive and healthy because of the watershed above them. The 
park recognized this when developing the 1998 GMP and accompanying 
Environmental Impact Statement. The plan recommended the inclusion of 
the watershed into the park to provide for better cave protection and 
to protect the surface and subsurface hydrology and the public water 
supply.
    If S. 1270 were enacted, there would be no acquisition costs 
associated with the boundary expansion and we estimate National Park 
Service's management, administrative, interpretive, resource 
protection, and maintenance costs to be approximately $300,000 to 
$750,000 annually. The Department has four major issues with the bill 
at this time:

          1. Section 6 of the bill designates the River Styx as a 
        recreational river. The recreational status does not afford any 
        additional protection to the water or cave resources and may 
        encumber the current management of the cave resources.
          2. Section 7 of the bill requires the Secretary to ensure 
        that forest attributes remain intact and functioning within a 
        ``historical range''. However, because of environmental 
        uncertainties, it may be more prudent to use ``normal range of 
        ecosystem variability'' rather than ``historical range''.
          3. Section 8 of the bill requires that if a grazing permittee 
        or lessee chooses to voluntarily donate a grazing permit or 
        lease within either the Big Grayback Grazing Allotment (managed 
        by the U.S. Forest Service) or the Billy Mountain Grazing 
        Allotment (managed by the BLM) the Secretary shall accept the 
        donation, terminate those permits or leases and that those 
        allotments shall be permanently retired. It is our 
        understanding that the same individual runs livestock on both 
        the Big Grayback and Billy Mountain Allotments. We note that 
        the Billy Mountain Grazing Allotment is approximately 15 miles 
        from the boundary of the proposed monument expansion. We would 
        like the opportunity to work with the Committee and sponsor to 
        further explore these grazing provisions.
          4. Section 9 of the bill discusses hunting, fishing and 
        trapping. We support the Administrative Exceptions under 
        subsection (b) since it provides flexibility in managing the 
        resources within the preserve. With respect to Section 9, we 
        would like to terminate hunting within the preserve after five 
        years with the acreage being converted to national monument 
        status. We base this request on the information collected 
        during the public participation process for the General 
        Management Plan. Of the 892 comments received on the plan, only 
        8, less than one percent, expressed concern about the loss of 
        hunting should the added acres be designated as part of the 
        national monument.

    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                         s. 1418 and h.r. 2330
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1418 and H.R. 2330, the Camp Hale Study Act. The 
U.S. Forest Service (White River National Forest) currently manages 
Camp Hale as a part of the National Forest System.
    The Department supports both S. 1418 and H.R. 2330, with an 
amendment to section two to include the US Forest Service in a joint 
study with the National Park Service for the future management of Camp 
Hale and to delete section three. However, we feel that priority should 
be given to the 47 previously authorized studies for potential units of 
the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to Congress.
    S. 1418 and H.R. 2330 are almost identical and both bills would 
authorize the Secretary of the Interior (Secretary), to conduct a 
special resource study to determine the suitability and feasibility of 
designating Camp Hale as a unit in the National Park System. The study 
would also determine the methods and means for protection and 
interpretation of the Camp Hale site by the National Park Service, 
other federal, State, or local government entities, or private or 
nonprofit organizations. Not later than three years after funds are 
made available, the Secretary is directed to submit the results and 
recommendations of the study to Congress. The bill includes language to 
assure the study would not impact valid existing water rights in place 
upon the date of enactment. S. 1418 also specifies that the study would 
not impact the ability to construct and operate infrastructure 
necessary to develop and use those water rights. We estimate that this 
study will cost approximately $300,000.
    Located in and managed by the White River National Forest, in west-
central Colorado, Camp Hale was established in 1942 to provide winter 
and mountain warfare training during World War II, because of the 
natural setting of a large, flat valley bottom, surrounded by steep 
hillsides suitable for training in skiing, rock climbing and cold 
weather survival skills. The size of Camp Hale varied between 5,000 and 
247,243 acres when it was an active military installation.
    Managed by the US Forest Service (White River National Forest), The 
Camp Hale Formerly Used Defense Site, is now used year-round by the 
public as a recreation area and is included on the National Register of 
Historic Places.
    Since the time Camp Hale was used for military training, there have 
been numerous discoveries of unexploded ordinance (UXO) there. As 
recently as 2003, during efforts to contain a wildfire, UXO used during 
the training of U.S. troops in World War II was found on the site.
    Efforts to remediate public risk from any remaining UXO at Camp 
Hale continue. The funding for any response actions at Camp Hale will 
depend on how the UXO sites there rank nationally. Depending on that 
rank, and available federal dollars, the remedial investigations for 
some or all Camp Hale munitions may not occur for several years. The 
Colorado Department of Public Health and Environment has discussed 
evaluating the hazard liabilities and remediating the site with the 
U.S. Army Corps of Engineers prior to a transfer.
    The story of Camp Hale and the men and women who trained there 
reflects the adaptability our nation showed during the last World War. 
Many of those who trained there went on to develop alpine skiing as a 
recreational activity, significantly influencing the economy of 
Colorado and many other western States. Studying and determining how 
best to preserve and protect Camp Hale and to commemorate the sacrifice 
and heroism so many Americans exhibited as a result of their training 
is laudable.
    We suggest that both bills be amended in section two to include the 
US Forest Service in the study to determine the future of Camp Hale and 
to remove section three, which includes language concerning water 
rights. The study recommended in both bills would examine the 
suitability and feasibility of designating Camp Hale as a unit in the 
National Park System, including evaluating all current uses and rights 
associated with the land. Since the bill only authorizes a study of the 
site, there is no possibility of the study having any affect on any 
water rights. As such, we believe the water rights language in both 
bills is unnecessary and redundant and we recommend the section be 
deleted.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittee 
may have.
                               h.r. 2430
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on H.R. 2430, a bill to direct the 
Secretary of the Interior to continue stocking fish in certain lakes in 
North Cascades National Park, Ross Lake National Recreation Area, and 
Lake Chelan National Recreation Area (hereafter referred to as ``North 
Cascades Complex'').
    The Department does not oppose H.R. 2430; however we would like to 
work with the committee on amendments to the bill.
    The National Park Service collectively manages North Cascades 
National Park, Ross Lake National Recreation Area, and Lake Chelan 
National Recreation Area as North Cascades National Park Service 
Complex. All of the 245 mountain lakes in the North Cascades Complex 
area were naturally fishless. Fish stocking in this area began in the 
late 1800's. During this period, approximately 91 lakes were stocked at 
one time or another and 154 lakes were never stocked. This fish 
stocking provided the opportunity to fish in these mountain lakes. The 
issue of continued fish stocking arose in 1968 when the proposal to 
create the park was introduced. Although the enabling legislation does 
reference the requirement for a Washington state fishing license, it is 
silent regarding fish stocking. Stocking continued after the park was 
established. However, concerns over the ecological impacts of fish 
stocking in naturally fish-free waters continued. Then soon after the 
park complex was created, the National Park Service policy regarding 
fish stocking was revised to provide that fish stocking in naturally 
fish-free waters should not occur. Fish stocking was phased out in many 
national parks across the country to restore natural conditions and to 
preserve native species. In 1988, Congress designated ninety three 
percent of the North Cascades as the Stephen Mather Wilderness and 90 
of the 91 lakes that had historically been stocked are within the 
Wilderness area. At the time the Wilderness was designated, Congress 
did not address the issue of stocking the lakes.
    The 2006 Management Policies of the National Park Service (NPS) 
allow for the management of fish populations when necessary to restore 
resources to their natural state or reestablish a native species that 
has been extirpated. Stocking of other plants or animals is also 
allowed under certain circumstances. Specifically, the policies provide 
that ``In some special situations, the Secretary may stock native or 
exotic animals for recreational harvesting purposes, but only when such 
stocking will not unacceptably impact park natural resources or 
processes and when:

  <bullet> the stocking is of fish into constructed large reservoirs or 
        other significantly altered large water bodies and the purpose 
        is to provide for recreational fishing; or
  <bullet> the intent for stocking is a treaty right or expressed in 
        statute, applicable law, or a House or Senate report 
        accompanying a statute.

    The Service will not stock waters that are naturally barren of 
harvested aquatic species.''
    The NPS appreciates the collaborative partnership with the 
Washington Department of Fish and Wildlife (WDFW) at North Cascades 
Complex and throughout the State of Washington. Despite this strong 
working relationship, a number of challenges have historically arisen 
when trying to reconcile the missions and policies of the WDFW and NPS 
on this stocking program. However, multiple attempts have been made to 
negotiate a mutually acceptable outcome on this issue. For example, in 
1987, the Assistant Secretary of the Interior, Fish and Wildlife and 
Parks, negotiated an agreement allowing fish stocking to continue in 
certain lakes while simultaneously conducting research into the 
ecological impacts of stocking. In 1991, the National Park Service 
entered into a Consent Decree to resolve litigation challenging the 
fish stocking program wherein NPS agreed to conduct research into the 
ecological impacts of fish stocking at North Cascades and then to 
conduct a NEPA review of the fish stocking of naturally fish-free 
lakes.
    A decade of research, conducted in the North Cascades Complex 
through Oregon State University and the USGS Biological Resources 
Division, documented in the North Cascades lakes where fish had been 
stocked in low numbers and could not reproduce, no statistically 
significant ecological effects to native aquatic species were detected. 
However, in self-sustaining populations, non-native trout can have 
significant effects on native aquatic organisms such as amphibians and 
zooplankton.
    In 2002, the NPS in collaboration with WDFW began development of a 
comprehensive Mountain Lakes Fishery Management Plan/Environmental 
Impact Statement (Plan/EIS). The purpose of the planning effort was to 
apply the results of the research and resolve the longstanding conflict 
over fish stocking in the mountain lakes.
    On November 26, 2008, the NPS issued a Record of Decision for the 
final Plan/EIS and selected the preferred alternative that would stop 
stocking and remove fish from lakes where significant impacts were 
occurring (49 lakes) but allow stocking of non-reproducing fish at low 
densities to continue in up to 42 lakes, subject to additional 
monitoring. In this manner, the EIS found that the stocking would not 
unacceptably impact park natural resources or processes in some lakes. 
However, the Record of Decision (ROD) also notes that fish stocking in 
the Stephen T. Mather Wilderness does not meet the minimum requirements 
analysis conducted under section 4(c) of the Wilderness Act. In 
addition, the ROD recognizes that to be consistent with NPS policy, the 
NPS would need the legal authority to implement the preferred 
alternative. The ROD further provides and that if the legal authority 
was not provided to the NPS by July 1, 2009, the NPS, consistent with 
NPS policy, would discontinue the stocking program in its entirety and 
work to restore the natural ecology of all the mountain lakes. In the 
majority of lakes this would be accomplished through the combination of 
not stocking and continued fishing. Over time, natural mortality would 
remove the remainder. In lakes where naturally reproducing populations 
were found, the NPS would work to remove these fish. Realistically at 
least ten lakes are so large that no known removal techniques will work 
and fish populations will remain for the foreseeable future.
    The NPS is interested in ensuring that any legislation regarding 
fish stocking is guided by science and an understanding of the impact 
that such policy decisions would have on park resources. We recommend, 
for example, that any stocked fish be both native to the local 
watershed and be functionally sterile. And we request that the 
Secretary continue a program of monitoring the impacts of fish stocking 
in order to determine if further adjustments are needed to protect 
aquatic resources. We would welcome an opportunity to work with the 
Committee and the sponsors of this legislation on the language of these 
proposed amendments.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.

    Senator Udall. Thank you, Mr. Wenk.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to testify on S. 1270, the Oregon 
Caves National Monument Boundary Adjustment Act, and S. 635, to 
designate a segment of Illabot Creek as a component of the 
National Wild and Scenic Rivers System.
    Thank you. I will also comment on S. 1418 to direct the 
Secretary of the Interior to carry out a study to determine 
suitability and feasibility of establishing Camp Hale as a unit 
of the National Park System.
    S. 1270 would modify the boundary of the Oregon Caves 
National Monument to include approximately 4,070 acres of land 
currently managed by the Rogue River-Siskiyou National Forest.
    The USDA believes that interagency coordination and 
cooperation with joint public involvement to ensure that public 
concerns and desires are addressed is the most effective way of 
managing the Oregon Caves National Monument and surrounding 
National Forest System land.
    USDA looks forward to working together with the Department 
of the Interior over the next 6 months to develop interagency 
direction. Regardless of the outcome, our common goal is to 
best manage the monument and the surrounding national forest 
for the benefit of the public.
    The land managers of the Rogue River-Siskiyou National 
Forest have three priorities for this area. One is maintaining 
and protecting cave resources, hydrologic resources, 
watersheds, and view sheds. A second is improving forest health 
by addressing hazardous fuels, and a third is managing for 
multiple uses while minimizing any potential impact.
    With regard to Wild and Scenic River provisions of the 
bill, the proposed legislation provides for the addition of six 
river segments to the National Wild and Scenic Rivers System, 
four of which are in the proposed expansion area or in the 
current Rogue River-Siskiyou National Forest.
    The Forest Service studied these four rivers and found that 
they did not meet criteria for eligibility and we would 
recommend that the four rivers that the Forest Service studied 
be re-evaluated for their eligibility to the National Wild and 
Scenic Rivers System.
    S. 635, Illabot Creek, meets the criteria to be included in 
the Wild and Scenic Rivers because of the exceptional spawning 
for Chinook, coho, chum, and pink salmon, native steelhead. 
Both Puget Sound Chinook, steelhead, and bull trout, which are 
also in the Illabot Creek are listed under the Endangered 
Species Act.
    In addition, Illabot Creek provides habitat for wintering 
bald eagles, and the eagles using the Illabot roost are a part 
of one of the largest concentrations of wintering bald eagles 
in the continental United States.
    We strongly support the legislation.
    Mr. Chairman, we do recommend the subcommittee consider 
designating all of Illabot Creek from its headwaters to its 
confluence with the Skagit River, 16.3 miles, as recommended in 
the Mount Baker-Snoqualmie National Forest Plan. This includes 
the lower 2 miles classified as a recreational river, of which 
approximately 1.4 miles is in the Skagit Wild and Scenic River 
corridor.
    Finally, we are preparing written testimony for the 
subcommittee on the Camp Hale Study Act and look forward to 
working with the National Park Service to complete an 
integrated joint agency study of the historic attributes of 
Camp Hale located on the White River National Forest. We have a 
long history of working cooperatively with the National Park 
Service for the preservation and interpretation of significant 
lands and sites.
    This concludes my prepared statement, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Thank you for inviting me to testify on S. 1270, the Oregon Caves 
National Monument Boundary Adjustment Act of 2009, and S. 635, to Amend 
the Wild and Scenic Rivers Act to Designate A Segment of Illabot Creek 
in Skagit County, Washington, as a component of the National Wild and 
Scenic Rivers System.
                                 s.1270
    S.1270 would modify the boundary of the Oregon Caves National 
Monument to include approximately 4,070 acres of land currently managed 
by the Rogue River-Siskiyou National Forest. The resulting Monument 
would be designated as the Oregon Caves National Monument and Preserve. 
The bill would also designate six segments of rivers as part of the 
National Wild and Scenic Rivers System, and it would provide for 
possible termination of grazing use on a Forest Service-managed grazing 
allotment, a portion of which is located within the proposed boundary 
of the Preserve. USDA believes that interagency coordination and 
cooperation, with joint public involvement, is the most effective way 
of managing the Oregon Caves National Monument and surrounding forest 
service land. USDA and DOI look forward to reporting on the progress of 
our interagency coordination efforts within 6 months.
    I would like to take this opportunity to discuss the current status 
of cooperative management of the Rogue River-Siskiyou National Forest 
and the Oregon Caves National Monument and provide a few comments to 
the bill.
    We believe interagency cooperation would carry out the purpose of 
the bill to enhance the protection of the resources associated with the 
Monument and increase public recreation opportunities through a joint 
public involvement and review process, to ensure that public concerns 
and desires are addressed.
Boundary Adjustment and Management
    Section 4 of the bill would direct the Secretary of Agriculture to 
transfer management of the National Forest System Lands to the 
Secretary of the Interior, and to adjust the boundary of the Rogue 
River-Siskiyou National Forest accordingly. The 1998 Oregon Caves 
National Monument General Management Plan by the Department of the 
Interior (DOI), developed through the public National Environmental 
Policy Act (NEPA) process, recommended a similar boundary expansion. 
However, no coordinated study or formal dialogue between the 
Departments (beyond that provided under NEPA during development of the 
1998 plan) has taken place on the issue of expansion.
    The U.S. Forest Service is committed to cooperative management 
across our respective jurisdictions.
    The land managers of the Rogue River-Siskiyou National Forest have 
three priorities:

  <bullet> Maintaining and protecting cave resources, hydrologic 
        resources, watersheds, and view sheds. Critical landscapes, 
        including cave resources and watersheds, are managed by 
        interagency collaboration. These resources, and the need to 
        manage them in a cooperative manner, extend well beyond the 
        proposed Monument boundary.
  <bullet> Improving forest health by addressing hazardous fuels. Most 
        of the proposed expansion area is designated in the Land and 
        Resource Management Plan as ``Late-Successional Reserve'' (LSR) 
        as defined under the Northwest Forest Plan. These areas are 
        intended to serve as habitat for late-successional and old-
        growth related species. A majority of the LSR landscape within 
        this watershed, and the larger surrounding landscape managed by 
        the Forest Service, is in fire condition class 3--high risk of 
        damaging wildfire. Currently the Rogue River-Siskiyou National 
        Forest is removing hazardous fuels using timber contacts to 
        reduce fuels, both around the immediate vicinity of the 
        Monument and across watersheds. The Forest plans to treat 
        approximately 1550 acres to reduce hazardous fuels within the 
        proposed expansion area. ARRA funds are helping increase the 
        implementation rate of treatment in this area. Of the 1,550 
        acres, approximately 100 acres of hazardous fuels will be 
        removed by timber contract with volume estimated at 560 
        thousand board feet and an appraised value of approximately 
        $168,000. The remaining acreage will be treated using other 
        methods. These treatments are designed to restore the fire to 
        this ecosystem and will help ensure that the forest attributes 
        intended for the LSR, including bigger, older, more fire 
        resistant trees, remain intact. To that end, we fully endorse 
        the intent of section 7 of the proposed legislation to have 
        forest restoration activities continue on the proposed 
        expansion area. The hazardous fuel challenge in this region and 
        the danger of catastrophic fire cross all jurisdictions and is 
        one we all must work together to address.
  <bullet> Managing for multiple uses while minimizing any potential 
        impacts from harvest, grazing, mining, and road construction. 
        On National Forest lands surrounding the Monument, timber 
        harvesting, grazing and special forest product harvesting (i.e. 
        bear grass, firewood, mushrooms, etc.) are allowed only if they 
        meet resource objectives, as described above. Road management 
        is limited to maintenance and reconstruction activities; no new 
        roads are planned. Moreover, interagency collaboration provides 
        additional oversight of these multiple-use activities.

Relinquishment and Retirement of Grazing Permits
    Section 8 of the legislation would require the Secretary of the 
Interior to permit livestock grazing at a level not greater than the 
level at which grazing exists on the date of enactment. The legislation 
also would direct the Secretary of Agriculture to accept any donation 
of a grazing permit by the permit holder for grazing on the Forest 
Service managed Big Grayback grazing allotment and if such a donation 
is received, ensure an end to grazing on the entire allotment. Under 
this legislation, only a small portion of the Big Grayback allotment 
would become part of the proposed Preserve, but the legislation would 
end grazing on a large area of land outside the Preserve. We look 
forward to working with the Committee to address grazing management 
issues.
Recreational opportunities
    Current recreation on the portion of the National Forest proposed 
to be transferred includes horseback riding, hunting and fishing, 
gathering, camping, backpacking, and hiking. We support the requirement 
in section 9 that fishing, hunting and trapping be permitted in the 
proposed National Preserve with some limitations.
Wild and Scenic Rivers
    Section 6 of the proposed legislation provides for the addition of 
six river segments to the National Wild and Scenic Rivers System 
(NWSRS). The Siskiyou National Forest analyzed all tributaries to the 
Illinois River on National Forest System lands for eligibility for 
inclusion in the National Wild and Scenic Rivers System as part of a 
1989 settlement agreement to an appeal of the Land and Resource 
Management Plan. None of the four rivers included partly or entirely in 
the current Monument expansion proposal were found to meet the criteria 
for eligibility at that time. The segments within the proposed 
expansion area should be re-evaluated for their eligibility to be 
included in or added to the National Wild and Scenic Rivers System.
                                 s. 635
    The Wild and Scenic Rivers Act (16 U.S.C. 1271, et seq.) protects 
the free-flowing condition, water quality, and outstandingly remarkable 
natural, cultural, and recreational values of some of our most precious 
rivers. It also provides an opportunity to build partnerships among 
landowners, river users, tribal nations, and all levels of government.
    This bill would amend sec. 3(a) of the Act to designate a segment 
of Illabot Creek in Skagit County, Washington, as a component of the 
National Wild and Scenic Rivers System. It adds 14.3 miles in two 
segments: 4.3 miles from the headwaters to the Glacier Peak Wilderness 
boundary classified as wild, and 10 miles from the Glacier Peak 
Wilderness boundary to 1000 feet south of the Rockport-Cascade road 
classified as recreational.
    We strongly support the legislation.
    The segment to be designated by S. 635 is a tributary of the Skagit 
River, which was added to the National Wild and Scenic Rivers System in 
1978. It is located on the Mt. Baker-Snoqualmie National Forest, 
approximately 100 miles northeast of Seattle, Washington and flows from 
the glaciers of the North Cascades into the upper Skagit River, the 
largest tributary to Puget Sound.
    lllabot Creek provides exceptional spawning and rearing habitat for 
summer and fall Chinook, coho, chum and pink salmon; native steelhead; 
and, one of the largest populations of bull trout in the Skagit River 
watershed. Puget Sound Chinook, steelhead and bull trout are listed 
under the Endangered Species Act. Illabot Creek also supports the 
highest density of chum and pink salmon in the Skagit River watershed 
and provides habitat for wintering bald eagles. Eagles using the 
Illabot roost are a part of one of the largest concentration of 
wintering bald eagles in the continental United States.
    Mr. Chairman, we recommend the Subcommittee consider designating 
all of Illabot Creek, from its headwaters to its confluence with the 
Skagit River (16.3 miles) as recommended in the Mt. Baker-Snoqualmie 
National Forest Plan (June 1990). This includes the lower 2 miles, 
classified as a recreational river, of which approximately 1.4 miles is 
in the Skagit Wild and Scenic River Corridor. With the designation of 
Illabot Creek as proposed in S. 635, only 0.6 mile is not included in 
either Illabot Creek Wild and Scenic River or the existing Skagit Wild 
and Scenic River corridor. The lower 2 miles includes some of the most 
important fish spawning habitat and an important foraging and roosting 
area for wintering bald eagles. Much of this area is in the Skagit 
River Bald Eagle Natural Area and dedicated to resource protection.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Udall. Thank you, Mr. Holtrop.
    What I would like to do is turn to Camp Hale and ask a 
couple questions in regards to Camp Hale, and then we will work 
through the Senators who have joined us. I know they all have 
specific interests in these specific bills.
    I think, Mr. Holtrop, did you have anything else to add 
about Camp Hale, or did you fit your remarks into your previous 
statement?
    Mr. Holtrop. I finished my remarks in my oral statement. If 
there are some questions that I can add to, I will be happy to 
do so. We are preparing written testimony as you requested.
    Senator Udall. Thank you for that.
    Let me turn to Mr. Wenk. You have indicated that the Park 
Service supports amending the Camp Hale bill to provide for a 
joint study with the Forest Service. Are you proposing that the 
Forest Service should help determine whether Camp Hale is 
appropriate for a park designation or rather whether the study 
should explore other Forest Service management options?
    Mr. Wenk. I believe we are supportive of working with the 
Forest Service to determine based on the National Park Service 
criteria whether or not Camp Hale meets the requirements of 
significance, suitability, and feasibility, which would look at 
management options. We believe that this is best done in 
cooperation with the Forest Service and would prepare that 
study to come back to the committee and the Senate for 
consideration.
    Senator Udall. So what I hear you saying is you would like 
to keep a number of options alive for the time being and pursue 
those conversations, make your best analysis, and then come 
back to the committee.
    Mr. Wenk. Yes. I know working with the Forest Service we 
can provide the answers to our questions about meeting the 
criteria of significance, suitability, and feasibility.
    Senator Udall. To respond to Senator Burr's question about 
why I looked at him when I mentioned the Central Intelligence 
Agency, I did look at him in part because he serves on the 
Intelligence Committee, but I thought he also would be, as many 
are when they hear the story, very intrigued by the training 
that occurred there for Tibetan refugees who did return and in 
some cases engaged in actions in Tibet to deter and challenge 
the Chinese invasion of Tibet. The history is fascinating and 
one that will be well served if we do, in fact, set aside Camp 
Hale. I wanted to make that comment.
    Senator Burr brought up concerns about the historic 
lighthouse grant program. You mentioned you will get comments 
from the administration. Do you have a date in mind when those 
comments would be forthcoming?
    Mr. Wenk. We were working very hard yesterday to resolve 
the issues, I think, that Senator Burr addressed in terms of 
the base legislation and the apparent potential conflicts with 
the proposed legislation. I would suggest within--I will throw 
out--2 weeks we should be able to easily get that back up to 
you.
    Senator Udall. Thank you for that clarification.
    Let me turn to the ranking member, Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Both administration witnesses, welcome. We have had an 
opportunity to be together before.
    Let me go very quickly because I am going to have to run 
out for a few minutes, if I could, Mr. Wenk, to the issue of 
the lighthouses. It is my understanding there are 608 
lighthouses listed by the Maritime Heritage Program within the 
United States. Do you have any idea how many lighthouses would 
be eligible for the lighthouse preservation grants?
    Mr. Wenk. Actually, I do not believe that is clear in the 
legislation, whether it is just those lighthouses that have 
been conveyed under the National Historic Lighthouse 
Preservation Act or if other lighthouses would also be 
included. That is a clarification, I think, that we would need 
to make.
    Senator Burr. My understanding is that there are some that 
are included and there are many that are not. There would be a 
great inconsistency in us offering preservation or maintenance 
dollars to some and not all. Would you agree?
    Mr. Wenk. I think you are hitting on the exact conflicts 
that we are trying to resolve in coming up with our position on 
the bill.
    Senator Burr. Are you fairly confident, as I am, that the 
reversion clause was there for a reason, that the Federal 
Government at the time believed that preserving those 
lighthouses were important if there was local interest 
committed to do it? It was defined a number of different ways: 
community, nonprofit. I cannot remember all the different 
categories, but it sort of left it open for many different 
participants but with the understanding that transfer of title 
was the transfer of responsibility for all aspects of it. Is 
that the way the Park Service understood it?
    Mr. Wenk. My understanding is exactly that about the 
transfer of title--that the entity that it was transferred to 
did take on the responsibility for the preservation and 
maintenance and to provide access to the facility. Correct. I 
am not as familiar with the reversion clause that you are 
referring to, however.
    Senator Burr. But, in fact, this new grant program would be 
inconsistent with what I think the original intent was of the 
legislation.
    Mr. Wenk. Senator, that is the exact reason we were having 
trouble coming up with a position--because we were trying to 
reconcile our concerns about the base legislation with this 
proposed legislation.
    Senator Burr. I look forward, when you can get back with us 
on the position. I thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Burr.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I would like to ask Mr. Wenk about the fish stocking issue, 
if I could. Obviously, after 12 years of studying, research 
found that native or functionally sterile fish at a low 
population density in certain carefully selected lakes would 
not lead to impairment of the Park Service resources. So if 
resources would not be impaired by limiting fish stocking in 
certain high lake mountains, does that mean there are no 
ecological impacts of stocking fish in these lakes?
    Mr. Wenk. No. I think we believe that it does not rise to 
the level of impairment, but there are impacts certainly of 
introducing a non-native species. They were fishless lakes. So 
by introducing fish within these lakes, there is an effect on 
the system itself that the fish has been introduced to. But we 
do not believe that in the lakes that we said could be stocked, 
that it rises to the level of impairment.
    Senator Cantwell. The record of decision had its preferred 
alternative known as Alternative B. Does the Park Service 
headquarters support implementation of Alternative B as 
described in the recent record of decision?
    Mr. Wenk. We support it with the recognition that we would 
need the legislation in order to implement it.
    Senator Cantwell. Why did the Park Service change the 
policy here, the management approach in the 1980s?
    Mr. Wenk. I think it was a determination that, in terms of 
natural areas, we were trying to maintain and preserve natural 
areas in their natural state to the greatest extent possible.
    Senator Cantwell. Thank you.
    Mr. Holtrop, about Illabot Creek and its ecosystem. Can you 
talk about that and how it relates to the Skagit River and how 
it relates to the health of Puget Sound, which is obviously a 
big issue in the State?
    Mr. Holtrop. Yes, I would be happy to.
    First of all, the Skagit River, to which Illabot Creek is 
tributary, is one of the most important, if not the most 
important, fish spawning rivers in the entire Puget Sound area. 
Illabot Creek is to the Skagit River as the Skagit River is to 
Puget Sound. The spawning grounds throughout that system are 
significantly important for the entire Skagit River fish 
spawning opportunities and significant in their own right.
    Senator Cantwell. How do you currently manage Forest 
Service land around there and how will the Wild and Scenic 
designation affect that?
    Mr. Holtrop. The upper 4.3 miles of the designation is in 
designated wilderness, and that is the segment of the river 
that would be designated wild. That portion of the river that 
would be designated recreation flows through the areas of the 
Mount Baker-Snoqualmie National Forests which are managed in 
areas where we are managing for old growth ecosystem 
characteristics or very little development use, and it is the 
designation of a recreation river, and it is very consistent 
with the way that land is already being managed.
    Senator Cantwell. So the feasibility study listed some of 
the benefits to habitat and other species that exist there by 
doing this. Is that correct?
    Mr. Holtrop. That is correct. The eligibility study, first 
of all, found that it was free-flowing and had outstandingly 
remarkable values, and then the suitability study found that it 
was suitable to be designated both because of the interest of 
the Washington State Fisheries Department to continue to work 
in the stream system, strong local public support for the 
designation, as well as the outstandingly remarkable values for 
both fisheries and wildlife.
    Senator Cantwell. How does a designation like this add 
value to the community and to those opportunities?
    Mr. Holtrop. I think it adds value in many ways. It 
recognizes the significance of the stream for those values, the 
fisheries and wildlife values. I think there is pride that 
comes with that in the local area. Illabot Creek would be just 
the fourth Wild and Scenic River designated in the State of 
Washington, if it were to be designated Wild and Scenic, which 
also indicates the significance of the area.
    Senator Cantwell. A special value that is recognized by 
many people.
    Mr. Holtrop. Yes.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Cantwell.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Holtrop, I am just trying to figure out what is behind 
your opposition to my legislation. I think you understand that 
I am not at all satisfied with the agency's position here.
    The reason that I am pushing hard for this legislation, to 
protect this treasure and what amounts to 4,000 acres and you 
all running the forest there--that is 1.8 million acres. You 
got a lot to do there--is that why the agency has not responded 
to what the Park Service has brought to your attention in the 
past? They brought to you examples of clear-cutting, clear-
cutting right up to the monument boundary. That was the case in 
the late 1980s. There has been concern about grazing in the 
sensitive botanical areas. The Park Service keeps bringing you 
these concerns, and for one reason or another, you are not 
responsive to them. Yet, you keep asking for more time to 
somehow do something to work this out.
    Now, I have had my legislation out there for a year, and 
you talk about how you are doing various things to work this 
out with the Park Service. But I do not see it. So what has 
been accomplished specifically in the last year? What has been 
accomplished with you all and the Park Service to get this 
worked out in the last year? Why was it not done in the last 
year? That would have been great and I could have moved on and 
do other things and my constituents would have been plenty 
happy.
    Mr. Holtrop. I think there has been a great deal of dialog 
that has occurred in the last year.
    Senator Wyden. That is not the question. Why has it not 
been worked out? Why has it not been accomplished in the year 
that I have introduced this legislation, that you all and the 
Park Service have not figured out a way to address these 
concerns?
    Mr. Holtrop. Again, I think we have been addressing those 
concerns. We have not worked it all the way to conclusion for 
the mutual satisfaction of both of the agencies. But as my 
testimony indicates, at the end of the day, it is going to be 
very important to both organizations to recognize whether there 
is a 480-acre national monument or a 4,000-acre national 
monument. It is, as you stated, going to be in the midst of an 
over million-acre national forest. Both the national monument 
and the national forest will be significant environmental, 
economic, and social drivers in that community and all the 
communities of interest in that area, and we want to make sure 
that there has been a joint effort with joint public 
involvement to allow us to look at what are some of the issues, 
what are some of the approaches that we can take to be 
responsive to that.
    I would also like to add that, for example, with the 
grazing use, when the National Park Service took over the 
national monument back in the 1930s from the management of the 
national forest, the grazing permit at that time had 200 head 
of cattle. We made adjustments in the grazing use to 70 head 
over the past several years, and we are in the process right 
now of reducing that again to 56 head of cattle on an allotment 
that is 26,000 acres in size, of which 1,000 acres is in the 
proposed expansion of the national monument.
    I think we have been responsive and continue to be 
responsive and look forward to continuing to work with the Park 
Service to resolve the issues to meet the objectives of this 
legislation.
    Senator Wyden. Why do you not give me the written records 
that would describe what has been accomplished in the last 
year? Because I will tell you, all I see is foot-dragging, and 
it is not acceptable to me. I am going to push this legislation 
because my constituents feel very strongly about it. As far as 
I can tell, there has not been much accomplished in the last 
year since you have seen that my constituents care a great deal 
about it and that I care a great deal about it. We are just 
going to stay with this until it gets addressed.
    I would certainly like to see my legislation become 
irrelevant. I would love to be able to see an agreement that 
would have some teeth in it for cooperative management, but I 
just do not see any evidence that that is going to take place 
under what is being talked about. The fact of the matter is 
that the Park Service has asked for an expanded monument 
boundary going back to the 1930s. Do you not think the 
communities I represent have waited long enough, Mr. Holtrop? 
Do you want to make them wait another century? I mean, they 
have been waiting since the 1930s on this. You come and tell me 
about dialog.
    Mr. Holtrop. There have been requests in the 1930s and 
1940s and the end of the last century, as you indicated. There 
was also a request in 1985 by the Park Service for the Forest 
Service to take over the management of the management of the 
monument. There was an analysis done by the National 
Speleological Society in the earlier part of this decade 
considering whether the Forest Service should take over. I do 
not suggest that at all.
    But I would just point that out to point out the fact that 
when there have been several studies and several analyses, my 
30-plus years of experience in public land management is people 
do not want to do that because they enjoy doing the analysis. 
They do it because they find that there really are issues that 
are difficult to work out. I think we need to work out some 
issues. I think we can do that in a joint manner.
    Senator Wyden. You and I just disagree on the nature of the 
problem. The reason it is not getting done is because there is 
no leadership. That is why it is not happening. They want to 
get it done. But to get problems solved, you have got to have 
people step up, and unfortunately, that has not taken place.
    Mr. Chairman, I have just a couple of other questions. 
Would it be all right if I asked those at this point?
    Mr. Wenk, I am trying to figure out what the Park Service's 
position actually is at this point. You all have been in favor 
of what I have been talking about for some time, and there has 
been longstanding Park Service support for this. There was a 
recent article at home in the paper indicating that you all 
were for it. Now it seems that you all have changed your 
position or at least it looks to me like you all have changed 
your position. So I am reading what the newspapers say which is 
that you all support it, and then there is past information 
from you all indicating you supported it. Now you seem to have 
changed your position, and I want to see if that is the case 
and, if so, why?
    Mr. Wenk. Senator, we definitely support the intent of the 
legislation. We have agreed, if you will, to try to work with 
the Forest Service to see if we can work through the issues 
that we have, but our general management plan in 1999 or 1998 
actually is the official position, if you will, of the National 
Park Service.
    Senator Wyden. So you say today you support the intent of 
the legislation, but you do not support the legislation.
    Mr. Wenk. Senator, what we are saying is that we have 
agreed with the Forest Service to work diligently to see what 
we can work out in the short term.
    Senator Wyden. So you would like to have this worked out 
what? In 60 days?
    Mr. Wenk. I think the number we have talked about is trying 
within 6 months to work it out.
    Senator Wyden. So you want another 6 months on top of the 
fact that I introduced the legislation a year ago, on top of 
the fact you all were supportive of it in the past. Now you 
want 6 months. What is going to be accomplished in this 6 
months that has not been accomplished in the last year?
    Mr. Wenk. I cannot answer that question, Senator.
    Senator Wyden. Then why would I support your position? This 
is what is so baffling about it. You just said you need 6 more 
months. I want to be responsive to your interests, and I said 
what are you going to accomplish in the next 6 months that you 
have not accomplished in the last year, and you do not have an 
answer to it.
    I mean, I am not going to belabor this. Gentlemen, I hope 
you will put your heads together because it is my intent to 
work with the chairman and the ranking minority member to move 
this legislation as quickly as possible. This is darned near a 
textbook case for lack of cooperation between the Forest 
Service and the Park Service on something my constituents feel 
very strongly about, and I am going to do everything I can as a 
member of this committee to get this worked out.
    Thank you for your time.
    I thank Senator Burr for the extra time to be able to pose 
the questions on something that folks at home feel very 
strongly about. I thank you.
    Senator Udall. Thank you, Senator Wyden.
    I have one last question before I check with Senator Burr 
to see if he has any other questions, and then we will bring up 
the next panel.
    Mr. Wenk, the final question I have concerns H.R. 2430, the 
North Cascades fish stocking bill that Senator Cantwell 
discussed with you. As presently written, the bill would direct 
the Park Service to authorize the stocking of fish in the 
identified parks. If the bill were amended to make that 
authority discretionary instead of mandatory, would the Park 
Service still be able to continue with the fish stocking 
program, or do you need an explicit override of park management 
laws?
    Mr. Wenk. With discretionary authority--we would still be 
able to stock the lakes, sir.
    Senator Udall. I was curious. I was visiting with the staff 
about Rocky Mountain National Park and whether the questions 
that are being asked here would also apply to Rocky Mountain 
National Park. I have fished in some of the high lakes there. I 
do not know if they have been stocked. I imagine some of them 
have been. I just draw that to your attention and my intention 
perhaps for a future conversation.
    Mr. Wenk. Thank you, Senator. It has been the policy of the 
National Park Service to not stock fish in lakes for--and I 
cannot give you the exact date--for quite a period of time to 
try to return the natural systems. This case at North Cascades 
is an exception.
    Senator Udall. It is an exception. I appreciate that 
clarification. I do know that well-meaning anglers and back 
country enthusiasts have, through the decades, carried fish, 
more appropriately fingerlings, to some of these high lakes. I 
know of certain cases too where those pilots who own airplanes 
have been convinced to make fly overs and stock lakes in that 
same way. I finally appreciate the way in which the Park 
Service has kept faith with the National Environmental Policy 
Act and with the Organic Act of the Park Service. So these 
conversations will, obviously, continue and we will grapple 
with the right outcomes and the right approaches. So thank you.
    Mr. Wenk. Thank you.
    Senator Udall. Senator Burr, do you have any--thank you, 
again, for joining us. Next week perhaps, same place, same 
time?
    With that, let me call the second panel forward. We look 
forward to the second panel's testimony.
    As the second panel takes its seats, let me do a little bit 
of housekeeping. Senators Levin and Stabenow have statements on 
their lighthouse bill to be included in the record. Without 
objection, we will order that to happen.
    [The prepared statements of Senators Levin and Stabenow 
follow:]
  Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan, 
                               on S. 715
    Chairman Udall and members of the subcommittee, thank you for 
holding this hearing on S. 715, the National Lighthouse Stewardship 
Act. This legislation creates a three year competitive grant program at 
the Department of the Interior that will help to pay for the 
preservation and rehabilitation of historic lighthouses across the 
country. The grants will help nonprofit organizations, which serve as 
caretakers for these historic landmarks, to help them preserve and 
rehabilitate the historic lighthouses and keep them accessible to the 
public.
    This legislation complements a bill that was enacted in October 
2000, the National Historic Lighthouse Preservation Act, which I joined 
Sen. Frank Murkowski (R-AK) in offering. With the Coast Guard getting 
out of the lighthouse business, the National Historic Lighthouse 
Preservation Act helped facilitate the process of transferring historic 
lighthouses from the government to nonprofit historical organizations 
that would take over the responsibility for their care. It established 
an expedited process through the Government Services Agency to help 
ease lighthouse transfers by helping to cut through the bureaucratic 
red tape. As a result of the law, 51 lighthouses to date--13 in 
Michigan--have been transferred to custodians who will preserve them 
and keep them accessible to the public.
    Many of these lighthouse structures are in need of significant 
repair and rehabilitation, which is now the responsibility of their 
nonprofit custodians. Unfortunately, after obtaining custody of the 
lighthouses, many of the nonprofit organizations have struggled to 
raise the funds to adequately restore and maintain the lighthouses. To 
address this problem our legislation establishes a pilot program that 
would enable state and nonprofit groups to apply for competitive grants 
to help with restoration and maintenance efforts. This pilot program 
would authorize the secretary to distribute $20 million a year for 
three years.
    Funding for lighthouse restoration is important to Michigan and to 
the nation's historic preservation efforts. There are approximately 740 
lighthouses in 31 coastal states. Michigan alone has over 120 
lighthouses, more than any other state. They draw thousands of visitors 
to Michigan and other states each year and create jobs throughout our 
states. Michigan's and the nation's lighthouses are national treasures 
that beautify our shorelines. These historic lighthouses are part of 
our nation's rich maritime heritage. The grants are needed to help 
nonprofit organizations, which serve as caretakers for the historic 
landmarks, to maintain the beauty of the lighthouses and keep them 
accessible to the public.
    My office worked closely with lighthouse preservation groups in 
drafting this legislation. The Michigan Lighthouse Fund in my home 
state was invaluable in providing information on the needs of our 
nation's lighthouses. The funding that would be provided by this bill 
is desperately needed by these groups that work tirelessly to preserve 
our nation's maritime heritage.
    This funding would help ensure our lighthouses remain cultural 
beacons for generations to come. America's lighthouses are national 
treasures that we cannot let deteriorate to the point beyond repair. I 
hope the subcommittee will support the National Lighthouse Stewardship 
Act.
    I ask that the following letters from lighthouse organizations in 
support of this legislation be included with my testimony in the 
hearing record.
                                 ______
                                 
 Prepared Statement of Hon. Debbie Stabenow, U.S. Senator From Michigan
    Mr. Chairman, I would like to thank you for holding this hearing 
and for considering this important piece of legislation that I have co-
authored with Senator Levin. I would also like to thank Senators 
Burris, Collins, Durbin, Schumer, and Snowe for co-sponsoring this 
legislation, and emphasizing the importance of this bi-partisan effort 
to restore our nation's lighthouses.
    I also would like to extend a very warm welcome to Dr. Kirk 
Lindquist. Dr. Lindquist has been a strong advocate for lighthouse 
restoration for years, and I greatly appreciate him sharing his 
expertise with us in this area. It is a pleasure having him here on 
behalf of the Michigan Lighthouse Project.
    Michigan's lighthouses are an important part of our history, and 
the history of the Great Lakes. For decades these unique structures 
have helped to guide marine vessels of all sizes to our shores, and 
help the flow of goods and services to the Great Lakes and other 
coastal regions. Lighthouses also serve as tourist destinations for 
thousands of visitors each year, and generate much needed revenue for 
their surrounding communities. Perhaps no other region in the United 
States is as closely tied to their lighthouses as the Great Lakes 
community.
    The Great Lakes make up 20 percent of the world's fresh water 
supply, and thirty-three million people rely on the Great Lakes for 
their drinking water, including 10 million for Lake Michigan alone. The 
Great Lakes' coastlines also are home to wetlands, dunes and endangered 
species and plants. Lake Michigan alone contains over 417 coastal 
wetlands, the most of any Great Lake.
    The Great Lakes are not just an important natural resource, but 
they are a critical part of Michigan's economy and quality of life. 
Millions of people use the Great Lakes each year to enjoy our beaches, 
fishing and boating. Often during vacations, residents and visitors 
make time to visit one of Michigan's 130 lighthouses located on our 
nearly 3,288 miles of coastline. However, Michigan will not be the only 
state that will benefit from this legislation, this bill will help 
restore lighthouses all along the thousands of miles of coastline on 
the east and west coasts of the United States.
    Unfortunately, the lack of available funding has caused many of our 
lighthouses to deteriorate. In 2006, I authored the Michigan Lighthouse 
and Maritime Heritage Act, a bill that Senator Levin joined me in 
introducing to help preserve the history of this precious natural 
resource. The legislation required the National Park Service to study 
and make recommendations as to the best way to promote and protect 
Michigan's lighthouses and maritime resources. I mention this 
legislation because the bill that we are considering today would build 
upon past preservation efforts with new funding.
    I am proud to co-sponsor The National Lighthouse Stewardship Act. 
As has been noted, this legislation would create a three year 
competitive grant program. This program would be administered by the 
Department of the Interior, and would provide grants to stewards of 
historic lighthouses to help preserve and rehabilitate the areas they 
are caring for.
    Given the funding constraints that have hampered past restoration 
efforts, the funding from this program is critical. Each lighthouse is 
unique, with a history that must be shared and preserved. Lighthouse 
restorations can sometimes be a financial burden to the local 
government or nonprofit group making the repairs. By allowing these 
groups to apply for additional assistance through a competitive grant 
program, we can minimize their financial burden, and maintain the 
quality and integrity of the restorations. These restorations will not 
only preserve our lighthouses, but they will also create jobs and 
promote tourism at a time when our economy, especially in Michigan, is 
struggling.
    I look forward to working together to preserve our nation's 
lighthouses for future generations through the National Lighthouse 
Stewardship Act. Thank you again, Mr. Chairman.

    Senator Udall. Senator Stabenow asks that I convey her 
regrets that she could not testify in person today on her 
lighthouse bill. She is on the Agriculture Committee holding a 
hearing on the climate change. So I know, Dr. Lindquist, you 
are a constituent of the two Senators I just mentioned, and she 
wanted you to know that she sends her best wishes. I am certain 
the two of you have worked together in crafting the legislation 
that we will hear about.
    We have been joined by Greg Walter, who is from Cave 
Junction, Oregon, a constituent of Senator Wyden. Senator 
Wyden, did you want to say anything about Mr. Walter?
    Senator Wyden. I just am so glad he came. He is involved in 
just about every good cause in his community, and we are so 
appreciative of his involvement and particularly this cause. I 
think for you it has almost been a crusade to expand the 
boundary, and I really appreciate your coming back. I know it 
is a long, physically tiring trip. I welcome you and the other 
witness.
    Thank you, Mr. Chairman.
    Senator Udall. Mr. Walter, with that nice introduction, why 
do we not turn to you for your testimony? We grant you, give or 
take, 5 minutes. If you could keep your remarks in that 
timeframe, then we will look forward to asking you some 
questions. Dr. Lindquist, you will follow with your testimony 
when Mr. Walter is finished. Mr. Walter?

STATEMENT OF GREG WALTER, JEFFERSON STATE FINANCIAL GROUP, CAVE 
                          JUNCTION, OR

    Mr. Walter. I would like to start by thanking everyone for 
hearing my testimony today. Hello, all. My name is Greg Walter 
and I am an independent health insurance agent and co-owner of 
Jefferson State Financial Group in Cave Junction, Oregon. We 
service the community with health insurance, and we commend Mr. 
Wyden's efforts for the health insurance stuff. We will talk.
    I am here to speak today on the positive benefits that an 
expanded Oregon Caves National Monument will bring to our 
community in the Illinois Valley of southwest Oregon.
    The Oregon Caves National Monument was established in 1909 
by President Taft to acknowledge and protect the marble halls 
of Oregon, as author Joaquin Miller described the caves in 
1907. While 2,560 acres were originally withdrawn for the 
monument, President Taft designated a small 480-acre 
rectangular boundary in 1909. At that time, it was assumed that 
protecting the immediate area above the cave was sufficient to 
protect the caves.
    Scientific studies over the century, however, have made it 
clear that below-ground caves interact with the environment 
above ground. It is obvious that protecting the cave creek 
watershed and also the lake creek watershed is key to 
protecting this unique cave system. Indeed, impacts on the 
surface environment influence the sensitive underground 
processes of the caves and the River Styx, which would become 
one of the first underground Wild and Scenic Rivers under the 
proposed legislation.
    The current boundary simply cannot protect this cave 
system. While more information has been made available in 
recent years, the Park Service acknowledged the need for an 
expanded Oregon Caves National Monument as far back as 1939 and 
1949 and again in their 2000 general management plan. It is 
long past due to fully protect this national treasure.
    In order to protect cave ecology, surface and subsurface 
hydrology, forest ecology, view sheds, and public water supply 
at the national monument and also for rural economic 
development of Josephine County, the Oregon Caves expansion 
should, one, include a surface drinking water supply for the 
over 80,000 visitors annually--that is primarily for the 
Chateau--two, to protect additional surface and subsurface 
natural resources for current and future generations of 
Americans; and three, provide local rural economic development 
opportunities and expanded recreation at the monument.
    The historic and majestic Chateau at the Oregon Caves is 
part of a concession operated by our Illinois Valley Community 
Development Organization and seasonally employs about 30 people 
from the local community. Operated as a local nonprofit 
organization, all profits are put back into the community in 
the form of community grants.
    I also want to add that the local community development 
organization that operates the Chateau sees this as an economy 
of scale, meaning that unless we draw up a way to retain our 
visiting public longer, that their concession will fold or go 
out of business. There are only 23 rooms in the Chateau. There 
are about 50 seated at the dining room. They are running about 
50 percent capacity. So the expansion proposal would help in 
this. We would be able to better retain our visiting public 
that is already there. Maximizing concessions at the Oregon 
Caves is important to our community.
    According to the National Park Service, 73 percent of 
visitors would stay longer at the Oregon Caves if there were 
more to do than a 90-minute cave tour currently offered. One of 
the most botanically rich and scenic forests in America 
surrounds the Oregon Caves and offers visitors breathtaking 
views, abundant wild flowers, wildlife viewing, and memorable 
hikes. The Oregon Caves is an appealing asset that increases 
the quality of life for residents and brings visitors that 
contribute to our local economy.
    Protecting the caves via an expansion and through the Wild 
and Scenic Rivers Act would safeguard water supplies, sensitive 
ecology, and local business.
    Included in my written testimony are 25 letters* from local 
businesses that support this legislation that I gathered in 
just a few days. This is from a broad base or community 
support. I can, obviously, get more.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    So I just want to thank everybody for your time and hearing 
me on this.
    [The prepared statement of Mr. Walter follows:]
 Prepared Statement of Greg and Mary Walter, Jefferson State Financial 
                        Group, Cave Junction, OR
    My name is Greg Walter. I am an independent health insurance agent 
and co-owner of Jefferson State Financial Group, LLC located in the 
Illinois Valley. Our business serves the Southern Oregon area by 
helping our clients find the best health coverage for the lowest cost. 
I am a member of the Illinois Valley Community Development Organization 
Revolving Loan Fund Board where we award small business U.S. Department 
of Agriculture low interest loans. Additionally, I study regional 
history, work with our local historical societies and have a private 
map collection that pertains to what has occurred on public lands post 
European settlement with an emphasis towards the history of the U.S. 
Forest Service and forest policy.
    I am here to speak today on the positive benefits that an expanded 
Oregon Caves National Monument (OCNM) will bring to our community of 
Cave Junction in the Illinois Valley of Southwest Oregon. I want to 
approach this from both a business and social perspective and hopefully 
bring to light where our community currently stands economically and 
where we hope to see ourselves in ten years.
    First a little background on whom we are as a community.
    The Illinois Valley is in the southern part of Josephine County 
with approximately 10,000 residents. Cave Junction is the second 
largest city in the county with a population of about 1,700 people 
located in the Illinois Valley 27 miles southwest of Grants Pass on Hwy 
199 and is 12 miles north of the California border. Cave Junction got 
its start in tourism as the gateway to the Oregon Caves providing 
tourists with services. After World War II logging became the economic 
focus but ``by the late 50's the logging boom had played itself 
out''\1\. At one time there were 56 saw mills in the county but now 
only 1 remains. The top employers in the Illinois Valley are Josephine 
County School District, the Forest Service, two small grocery stores 
and the lumber mill. The other employers are made up of tourism 
businesses, small service companies, four wineries and one sausage 
manufacturing company.
---------------------------------------------------------------------------
    \1\ Piraino Realty Brochure c1972, page 15.
---------------------------------------------------------------------------
    According to a 2007 census for the county, logging and mining made 
up 2.75% of the overall employment picture and manufacturing made up 
22%. The large employers in the county are 30 miles away in Grants 
Pass: Fire Mountain Gems and Master Brand Cabinets, to name a few.
    The Illinois Valley is a remote rural area in Josephine County. Low 
wages, a lack of economic opportunity, high unemployment and rural 
poverty characterize this area. We have basically condemned the 
community pool, we have no public library and our local Boys and Girls 
Club struggles annually to keep its doors open operating out of the 
local elementary school with no facility of its own. The County 
receives federal funding through the Secure Rural Schools and Community 
Self-Determination Act.
    A diversified, sustainable local economy is our best hope for a 
stable, healthy future. Josephine County's success is dependent on 
nurturing a diversified economy that includes developing a sustainable, 
restoration-based forest industry that can rely on a non-controversial 
supply, and it includes protecting the natural treasures of our region. 
There are appropriate places for logging and appropriate places for 
permanent protection. Safeguarding the Oregon Caves is good for nature 
and for business.
    The Chateau at the Oregon Caves is a concession operated by our 
Illinois Valley Community Development Organization and seasonally 
employs about thirty people from the local community. Being operated as 
a local non-profit organization all profits are put back into the 
community in the form of Community Grants.
    The Chateau has twenty three rooms and can seat about fifty people 
in their dining room on any given night. Their operating season begins 
in mid May and traditionally goes through September. The Illinois 
Valley Community Development Organization buys local food products and 
markets local artwork. This is an economy of scale, and because the 
scale is relatively small it cannot continue its operation and 
concessions unless we see some growth in visitation and duration of 
stay.
    As the name implies, Cave Junction is a gateway community to the 
Oregon Caves. Visitors travel on Hwy 199 (The Redwood Highway) usually 
going to the Redwoods from Crater Lake National Park or vice-versa. The 
economic opportunity that Highway 199 offers to our small rural 
community through travel spending is considerable. There are about 
300,000 tourist vehicles traveling through this corridor annually, each 
carrying an average group size of three people who spend an average of 
$135 per day on lodging, food, gas, and other items. The total spending 
potential of this tourist corridor is about $40 million dollars 
annually. The Illinois valley has not taken advantage of this economic 
engine in our backyard. According to a fall 2006 report released by the 
Outdoor Industry Foundation, outdoor recreation contributes $730 
billion annually to the U.S. economy, and supports nearly 6.5 million 
jobs across the country. We should do a better job at protecting and 
marketing this area.
    According to the National Park Service statistics, approximately 
73% of visitors would stay longer if there was more to do than the 90-
minute cave tour. One of the most botanically diverse national forests 
in America surrounds the Oregon Caves and offers visitors breath-taking 
views, abundant wildflowers, wildlife viewing and memorable hikes. 
Unfortunately, the surrounding landscape is not marketed by the Forest 
Service in a way that maximizes the public enjoyment or economic 
potential of this unique area.
    Currently, the exceptionally scenic trail system from the Bigelow 
Lakes trailhead (that is part of the proposed expansion area) has been 
cleared, but the Forest Service has not provided clear signage on the 
trails within the proposed monument expansion. More pointedly, there is 
a confusing network of roads to get to the undesignated trailhead, most 
of which are unmarked and the signs vandalized or removed. If the 
expansion bill passes the subsequent Park Service improvements could 
lead to the development of a more family-oriented, user-friendly place 
that visitors could hike to and they would stay longer.
    Across the United States, there is growing recognition of the link 
between attractive public lands such as national parks, and the well-
being of the communities that provide access to them. These ``gateway 
communities'' generally provide food, lodging, and other services for 
visitors. But the parks are more than simple magnets for visitors. Many 
gateway communities have thriving, diverse economies that are not 
primarily dependent upon tourism and recreation. Yet the natural appeal 
of these areas is at the heart of their economic success.
    The Oregon Caves is an appealing asset that increases the quality 
of life for residents and brings visitors that contribute to our local 
economy. Cave Junction, the Illinois Valley in general and Grants Pass 
all stand to benefit from increased protections and visibility of this 
special place. In addition to the economic benefits of protecting this 
recreational magnet, protecting the caves via an expansion and through 
the Wild and Scenic Rivers Act would safeguard water supplies, 
sensitive ecology and wildlife habitat.
    The Oregon Caves National Monument was established in 1909 by 
President Taft to acknowledge and protect the ``Marble Halls of 
Oregon,'' as author Joaquin Miller described the caves in 1907. While 
2,560 acres were originally withdrawn for the Monument, President Taft 
only designated a small 480-acre rectangular boundary in 1909. At that 
time, it was assumed that protecting the immediate area above the cave 
was sufficient to protect the subterranean ecology. However, scientific 
studies and new technology over the past century have made it clear 
that the complexities of cave ecology most definitely include an 
interaction with the terrestrial and aquatic environment above ground. 
It has become obvious that the protection of the Cave Creek watershed 
is instrumental in protecting this unique subterranean system. Indeed, 
impacts on the surface environment influence the sensitive hydrological 
processes of the caves. The current boundary size simply cannot protect 
this cave system. While more information has been made available about 
the complex interaction of surface and subsurface ecology in recent 
years, the Park Service acknowledged the need for an expanded Oregon 
Caves National Monument and made such proposals in 1939, 1949 and again 
in 2000. It is long past due to fully protect this national treasure.
    Expanding the Oregon Caves will benefit our gateway community in 
the following ways:

          1. Fully protecting the complex ecology of this cave system 
        by protecting the interconnected terrestrial and aquatic 
        environments above ground.
          2. It will bring an increase in the number of visitors, but 
        more importantly they will have incentive to stay longer and 
        visit a spectacular example of a very accessible backcountry 
        glacial cirque, high mountain lakes and expansive views of 
        northwest California and southwest Oregon, including the 
        Siskiyou Crest, Red Buttes, Mt Shasta, Marble Mountains and 
        Siskiyou Wilderness areas. This is all seen from the high point 
        of Mt Elijah in the expansion area (the peak is named in memory 
        of Elijah Davidson, who discovered the Oregon Caves in 1874). 
        The Park Service has statistical evidence that the longer 
        visitors stay in an area, the infusion into that local economy 
        multiplies exponentially. OCNM surveys of visitors indicate 
        that 73% of visitors would stay longer if there were more 
        trails with features.
          3. Expansion will also bring the resources and expertise of 
        the National Park Service as far as maintaining access, trails, 
        signage and campgrounds. Most importantly it brings Park 
        Service branding. When visitors see the National Park Service 
        arrowhead and national monument sign, they know they have 
        arrived at their destination. It means they have arrived at a 
        visitor friendly and family safe place. A bigger place with 
        more things to do can attract more visitors and longer stays.
          4. The historic Oregon Caves Chateau could be showcased as 
        one of the great lodges of the northwest along with Mt. 
        Rainier's Paradise Lodge, Mt Hood's Timberline Lodge, the 
        Crater Lake Lodge, and the Benbow Inn in California. The 
        Chateau may benefit from the expansion because the rooms could 
        be occupied more consistently and local campgrounds will see 
        greater use. While staying longer they will enjoy fine dining 
        as well as have access to purchase local artwork at the Chateau 
        gift shop. The season could also be extended an additional two 
        months with increased visitation.
          5. The Chateau is currently undergoing various stages of 
        restoration from funding provided both by private donations and 
        pending federal funding, which has resulted in an increased 
        interest.
          6. There is a component to this expansion that will allow for 
        the retirement of a cattle grazing allotment and the removal of 
        cattle from the Bigelow Lakes and Lake Creek drainage, which 
        will provide the Chateau with cleaner water. For years, the 
        Park Service has expressed concern about the contamination of 
        the Monument's drinking supply due to cattle grazing. The 
        allotment retirement would protect water quality, as well as 
        sensitive and unique meadows that provide exceptional hiking 
        opportunities around the Caves.
          7. Above the Caves in the High Siskiyou Mountains are the 
        Bigelow Lakes. Formed in a glacial cirque the lakes are 
        surrounded by meadows and primeval forests. Ancient species of 
        Brewer's Spruce and rare flowering plants inhabit the area as 
        relics from the ice age. Due to its unique characteristics the 
        area has been given special botanical area designation. 
        However, the Forest Service has done little to manage for and 
        protect this valuable resource. The Park Service has a proven 
        track record for managing natural areas. For example, a rare 
        botanical specimen, the California globe mallow, which grows in 
        the area, requires periodic burning to germinate its seeds. The 
        Park Service would be able to meet the plants needs with 
        prescribed burning. Currently, the Forest Service emphasizes 
        cattle grazing which is harmful to the plant and is 
        contributing to the need to list the plant under the Endangered 
        Species Act. Most people visit natural areas where they are 
        sure to see rare botany or wildlife, not grazed meadows and cow 
        patties.
          8. Another important point is that the original Monument 
        boundaries did not take into consideration the extent of the 
        cave network underground, which extends outside of the current 
        boundaries. Expanding the Monument boundaries will provide 
        protection for the entire cave network, including the 
        terrestrial and aquatic environment above the caves, which are 
        essential to cave ecology.
          9. The expansion would open the door for Park Service nature 
        tours in the upper Lake Creek watershed and evening 
        presentations at Caves Campground that would better inform the 
        American public about public lands, cave ecology, the role of 
        fire in western forests, climate change, and the need to 
        protect native plant diversity.
          10. Lastly, the local art and tourism business and 
        organizations are working together to produce brochures and 
        information on the wealth of local attractions and products 
        uniquely available to this community. The Illinois Valley has a 
        large population of artists and entrepreneurs that are 
        currently struggling due to lack of exposure. The Monument 
        would be the initial destination to draw the tourist here but 
        once they discover venues of interest, statistically they will 
        come back again and again as well as tell friends about what 
        they have found here.

    In review, the Oregon Caves National Monument is currently an 
important draw to the area, but it is not comparable with other primary 
park and recreation destinations in the region. With all of its scenery 
and grandeur, Oregon has so few National Park units and we deserve 
more. This could be addressed by expanding and protecting the 
Monument's resources, providing greater access to the visiting public 
and improving a diversified business climate by increasing 
opportunities to make the Caves and Chateau as successful and 
regionally important as they can be. This will bring the valley 
community great pride and positive economic growth from the ability to 
showcase this backcountry crown jewel and historic Chateau that will 
benefit all Americans for generations to come.
    I thank you all for your time.

    Senator Udall. Thank you, Mr. Walter.
    Mr. Lindquist, you are from the Michigan Lighthouse 
Project, and you hail from--how do you say your hometown?
    Mr. Lindquist. Okemos, sir.
    Senator Udall. Okemos, Michigan. Thank you for joining us.
    Mr. Lindquist. Thank you very much.
    Senator Udall. You have 5 minutes to share your perspective 
with us.

  STATEMENT OF KIRK L. LINDQUIST, MEMBER, MICHIGAN LIGHTHOUSE 
 PROJECT AND PAST PRESIDENT, MICHIGAN LIGHTHOUSE FUND, OKEMOS, 
                               MI

    Dr. Lindquist. Mr. Chairman, Senator Burr, members of the 
subcommittee, my name is Kirk Lindquist, member of the Michigan 
Lighthouse Project. This is the interagency work group 
established to facilitate the orderly transfer of federally 
owned lighthouse properties. I am also past President of the 
Michigan Lighthouse Fund, the statewide nonprofit organization 
dedicated to securing financial resources for Michigan 
lighthouse stewardship organizations.
    I am very pleased to be here to present comments and 
discuss the merits of the National Lighthouse Stewardship Act 
of 2009 and urge the committee to report out favorably S. 715.
    This bill would authorize grants to all 31 coastal States 
to protect and preserve our Nation's historic lighthouses. 
Stewardship grants would be awarded in a manner consistent with 
existing Federal law and State historic preservation 
regulations.
    It would also support rehabilitation efforts for 
lighthouses managed within the National Seashore and Lakeshore 
systems, as well as other Federal agencies, provided there is 
involvement of the nonprofit stewards.
    The Federal Government has provided funding for lighthouse 
operations and maintenance since the beginning of the 
lighthouse program in 1787. This is no longer the case. Many 
properties have been excessed over the last 35 years and 
transferred or sold. Once these properties were removed from 
the Federal hands, no Federal funding has been available for 
maintenance or major repair.
    The pace of transfers has picked up considerably after 
1995. Technological developments in geo-positioning and other 
navigational aids during the 1990s prompted the United States 
Coast Guard to get out of the lighthouse business. Since that 
time, many lighthouse properties maintained by the Coast Guard 
have been transferred or sold to governments, nonprofit 
organizations, and private interests.
    In 2002, the National Historic Preservation Act, the NHLPA, 
became law. This was cosponsored by Senator Frank Murkowski and 
Senator Carl Levin. This legislation established a process to 
facilitate these transfers and gave priority to State/local 
governments and nonprofit lighthouse stewardship organizations. 
The NHLPA program is administered through the combined efforts 
of the National Park Service in cooperation with the United 
States Coast Guard and General Services Administration and has 
been a notable success.
    The financial need of our Nation's lighthouses has been 
difficult to estimate. Deferred maintenance has created major 
problems for their new owners. Normal maintenance costs for 
each of these 150-year-old structures can easily exceed $80,000 
per year. Rehabilitation estimates are much more, as much as 
$1,500,000 per lighthouse. It is easy to predict the fate of 
these properties that cannot be maintained by volunteer or 
private landlords. They will be abandoned. The need exists even 
though the Coast Guard is no longer in the lighthouse business.
    Just as there are 31 coastal States with lighthouses, there 
are at least 31 different approaches to their maintenance and 
rehabilitation. 10 States have specialty license plates 
featuring lighthouses, but only one has a sustained grant 
program for lighthouse preservation. This bill encourages the 
Department of the Interior to work through existing grant 
programs where practicable, especially in partnership with 
State historic preservation offices. This is why a pilot 
program is suggested. Through experience gained during this 3-
year period, a preferred process will evolve and applied in a 
longer-term grant program.
    The purpose of the excess program is to save Federal money, 
and these properties have been expeditiously transferred to 
local governments and nonprofit stewards. However, many of 
these groups have budgets supported by less than $20,000 in 
annual revenue. The purpose of S. 715 is to provide for the 
difference between what they can afford and the amount needed 
to preserve and rehabilitate their structures.
    We suggest only that the Federal Government should do the 
right thing. We are not asking that the traditional funding 
source be restored; only that the commitment to maintain these 
properties be respected.
    Lighthouse and other maritime interests strongly support S. 
715. I request that letters of support be included in the 
hearing record, along with my written testimony. S. 715 would 
be an important tool for preservation and protection and as an 
instrument of economic growth for our Nation's coastal 
communities. It is my hope that the committee will support its 
enactment.
    This concludes my prepared remarks. Thank you very much for 
the invitation to testify about issues addressed by this bill. 
I would be happy to respond to any questions you might have. 
Thank you very much.
    [The prepared statement of Mr. Lindquist follows:]
 Prepared Statement of Kirk L. Lindquist, Member, Michigan Lighthouse 
    Project and Past President, Michigan Lighthouse Fund, on S. 715
    Mr. Chairman, Members of the Subcommittee, my name is Kirk 
Lindquist, member of the Michigan Lighthouse Project: the interagency 
work group established to facilitate the orderly transfer of federally 
owned lighthouse properties to government agencies, local governments 
and non-profit organizations. I also have served as President of the 
Michigan Lighthouse Fund: the statewide nonprofit organization 
dedicated to securing financial resources for Michigan lighthouse 
stewardship organizations. I am pleased to be here to present comments 
and discuss the merits of the National Lighthouse Stewardship Act of 
2009, and urge the committee to report out favorably S. 715.
    This bill would authorize grants to all 31 coastal states to 
protect and preserve our nation's historic lighthouses. Stewardship 
grants would be awarded in a manner consistent with existing federal 
law and state historic preservation regulations.

  <bullet> Provide grants to states, local governmental units, and 
        nonprofit stewardship organizations for lighthouse 
        rehabilitation and preservation
  <bullet> Support rehabilitation efforts for lighthouses managed with 
        in the National Seashore and Lakeshore systems, as well as 
        other federal agencies
  <bullet> Authorize $20,000,000 per year during the 3-year pilot 
        program for lighthouse preservation
               federal funding for lighthouse operations
    The Federal Government has provided funding for lighthouse 
operations and maintenance since the beginning of the lighthouse 
program in 1797. This is no longer the case. Many properties have been 
excessed over the last 35 years and transferred or sold. Once these 
properties were removed from federal hands, no funding has been 
available for maintenance or major repair. The pace of transfers picked 
up considerably after 1995. Technological developments in geo-
positioning and other navigation aids during the 1990's, prompted the 
USCG to get out of the lighthouse business. Since that time, many 
lighthouse properties maintained by the Coast Guard have been 
transferred or sold to governments, non-profit organizations, and 
private interests.
    In 1995, the U.S. Government accelerated the pace of transfers of 
light station properties from federal ownership. In 2002, the National 
Historic Lighthouse Preservation Act (NHLPA; co-sponsored by Senator 
Frank Murkowski and Senator Carl Levin) became law. This legislation 
established a process to facilitate these transfers, and gave priority 
to state/local governments and nonprofit lighthouse stewardship 
organizations. The NHLPA program is administered through the combined 
efforts of the National Park Service, in cooperation with the U.S. 
Coast Guard and the General Services Administration, and has been a 
notable success.
    The revenue stream from the Tonnage Duty continues to support the 
U.S. Coast Guard, through the Department of Homeland Security, but 
little federal money has been spent on lighthouse repair. Deferred 
maintenance has created major problems for their new owners. Normal 
maintenance costs for each of these 150 year old structures can easily 
exceed $80,000 per year. Rehabilitation estimates are much more: as 
much as $1,500,000 per lighthouse. It is easy to predict the fate of 
properties that can not be maintained by volunteer or private 
landlords: they will be abandoned. Nationally, a conservative estimated 
need for lighthouse rehabilitation and protection is more than 
$110,000,000. The need exists, even though the Coast Guard is no longer 
in the lighthouse business.
          proposed national lighthouse stewardhip act of 2009
    Just as there are 31 coastal states with lighthouses, there are at 
least 31 different approaches to their maintenance and rehabilitation. 
Ten states have specialty license plates featuring lighthouses, but 
only one has a sustained grant program for lighthouse preservation. 
This bill encourages the Department of Interior to work through 
existing grant programs, where practicable, especially in partnership 
with State Historic Preservation Offices. This is why a pilot program 
is suggested. Through experience gained during this 3-year period, a 
preferred process will evolve, and applied in a longer term grant 
program.
    The purpose of the excess program is to save money, and these 
properties have been expeditiously transferred to local governments and 
non-profit stewards. However, many of these groups have budgets 
supported by less than $20,000 in annual revenue. The purpose of S.715 
is to provide funding for the difference between what they can afford 
and the amount needed to preserve and rehabilitate their structures.
    We suggest only that the Federal Government should do the right 
thing. We are not asking that the traditional funding source be 
restored; only that the commitment to maintain these properties be 
respected.
    Lighthouse and other maritime interests strongly support S.715. I 
request that letters of support be included in the hearing record along 
with my written testimony. S.715 would be an important tool for 
preservation and protection, and as an instrument of economic growth 
for our Nation's coastal communities. I hope the committee will support 
its enactment.
    This concludes my prepared remarks.
    Thank you very much for the invitation to testify about issues 
addressed by this bill. I would be happy to respond to any questions 
you or the subcommittee might have.

    Senator Udall. Thank you, Dr. Lindquist.
    Let me turn to Mr. Walter for a question. Thanks again for 
your testimony. Your passion for the area clearly comes 
through. I enjoyed reading about the history of the Oregon 
Caves, the proximity to Crater Lake, and other great areas in 
Oregon. I had a chance to live in Portland and work in eastern 
Oregon in the Elkhorn Mountains and the Wallowa Mountains and 
am familiar with some of the beautiful natural areas in Oregon.
    Your testimony clearly highlighted the many reasons that 
you believe the Park Service had managed this addition as a 
part of the national monument. Given the testimony you heard--
and I am sure you are familiar with it--recommending additional 
time for the Department of the Interior and the Forest Service 
to explore ways to increase their coordination, how do you view 
this approach to managing the Oregon Caves resources? Do you 
think a partnership between the two could adequately protect 
the monument, or do you bring a different perspective?
    Mr. Walter. I think that it would be nice to see the Forest 
Service and the Park Service work together. The expanded 
monument is going to be surrounded by Forest Service land 
regardless. So they are going to have to work collaboratively.
    Senator Udall. Regardless of whether that land transfer 
occurs, one way or the other, they are going to have a common 
boundary. Are they not?
    Mr. Walter. Yes.
    The only thing that I could think of to say is that as far 
as the cattle grazing, somebody has to explain to cows where 
the boundaries are.
    But also the other thing about that too is that right now I 
know that they have funding for an additional--not to mention 
what they have already done--400 acres to do some restoration 
forestry up there, and it is really good work. Everybody 
applauds it, and I would like to see it written into the 
language of the bill that the Forest Service could continue to 
do that good work, as far as that goes. I do not know about 
beyond that.
    As far as the collaborative efforts between--or whatever 
issues that they have, as a local business person, obviously, 
we would like to see them work together. But we also want to 
see the area managed for the visiting public, and that is one 
thing that I think the Forest Service has not done a really, 
really good job with. Some of that is just local vandals 
tearing down the signs, but the signs do not come back up 
again. So what happens is that we do not get people going back 
into these areas that we have up there. So we have the 
resources and we have the trails even, but we just do not have 
proper signage and proper parking to allow for the visiting 
public to safely access in a family friendly manner.
    Senator Udall. Is one of the key concerns that you have and 
those who are advocating for the expansion that the grazing 
that is occurring, as legitimate as grazing is, is not as 
compatible with the monument as you think is necessary?
    Mr. Walter. Yes, insofar as the--there are several issues 
that are going on there. It could be the water supply since the 
lake creek drainage--this is where they get their water from as 
far as the Chateau. So it is something that we want to see. We 
would like to see the hydrology of the drainage cared for in a 
better manner.
    Senator Udall. I read the summaries of the Park Service and 
the Forest Service and, of course, advocates in your community 
for these new steps forward. It is common-sensical, but it was 
helpful to see it written, and I know Senator Burr has in his 
State incredible below-ground natural wonders and resources. 
But what happens on the surface of the earth then can affect 
cave ecology and cave life and cave dynamics. I think that is 
what you are speaking to here as well, that although you would 
like to think maybe that the two environments are segregated or 
separated, actually they are linked. Again, I do not want to 
put words in your mouth, but I think that is the concern that 
you are expressing, is to manage those surface activities in 
ways that are compatible with the cave ecosystem and the cave 
environment as well so that they are maintained for the 
enjoyment of the visitors and therefore your local economy is 
strong.
    Mr. Walter. Yes, sir.
    Senator Udall. Thank you again for your testimony.
    Let me turn to Senator Burr for questions or comments he 
might have.
    Senator Burr. Thank you, Mr. Chairman. I understand we are 
going to have a couple of stacked votes here in the next 20 or 
so minutes. So just to let the chair know that.
    Mr. Lindquist, I am sorry to sort of put you in the cross 
hairs with my opening statement, and I truly hope you do not 
take it personally. I was involved significantly in the 
original creation of this program. I value the Michigan 
lighthouses, value the North Carolina lighthouses. I have a 
real problem anytime we look back at things that we did and 
forget the reasons that we did them.
    So let me, if I could, do you believe that it was 
understood by non-Federal entities who acquired lighthouses 
that there was not a Federal responsibility that extended to 
fund the maintenance and existence of those lighthouses?
    Mr. Lindquist. I can respond to that in my capacity as 
working on the Michigan Lighthouse Project. As the interagency 
team, including Federal agencies and State and local 
governments, I have worked with these applicants, although 
there is the National Park Service process as articulated in 
NHLPA.
    Each time a property is excessed or a notice of excess is 
issued, applicants have an opportunity to visit that site and 
make an assessment. They receive copies of the condition 
reports as they have been prepared and are available. It is our 
opinion, as the decision is made and whether or not a 
particular applicant is appropriate or not, that their eyes are 
open, that they fully understand that this is a transfer. There 
is a transfer of responsibility, as well as a transfer of 
right. The assumption on everybody's part is that an applicant, 
in fact, will follow through and carry out the same custodial 
role as implemented and carried out by a Federal agency.
    Senator Burr. he reversion clause is clear in the 
application.
    Mr. Lindquist. Certainly it is. Not to comment on the 
intent because I certainly was not involved in any of the 
discussions leading up to NHLPA, but the reversion clauses 
clearly not only provide for what happens when the wheels fall 
off the cart. It provides likewise for a subsequent notice of 
availability and the property will be, once again, subject to 
the process where an applicant organization would come forward 
and seek responsibility. So in a sense it is not so much a 
closed loop, but it is a feedback loop, if you will, very 
similar to that, and the intent that is to dispose of and 
follow the intent of the excess is to make sure that the 
properties are in the hands of a capable organization.
    Senator Burr. There was a tremendous lack of confidence as 
to whether the Federal Government would do anything other than 
stand by and watch these historic landmarks disintegrate and 
deteriorate.
    Mr. Lindquist. That is true, and actually we have watched 
that happen during this process. We have a number of properties 
that have not transferred. We have one in particular in 
Michigan, just to use a Michigan example, in St. Joseph, where 
we have a property which is unbelievably beautiful. It is 
whitewashed. It has red roofs. It sits on a pier head. Tourist 
councils in the area, as well as the West Michigan Tourist 
Council, feature it in all their literature. The one thing to 
keep in mind, however, is that as you are taking a look at that 
pier head, the keeper's quarters has no second floor. It has 
fallen through. That is still under Federal ownership and 
responsibility.
    It would be presumptuous to say that the new transferee, if 
you will, be it the city, would be able to do anything more 
than the Federal Government has in terms of safeguarding or 
protecting these structures from their own resources. This is 
clearly a plight that our lighthouses, especially the ones that 
are well over 100 years old, are facing.
    Senator Burr. Let me, if I could, recap what the bill does. 
It creates a 3-year pilot program.
    Mr. Lindquist. That is right.
    Senator Burr. It authorizes $20 million a year for each of 
those 3 years. You identified in your testimony that a 
conservative number is $110 million to rehab these lighthouses 
in total. So we are asking in the 3-year pilot program to fund 
over 50 percent of the identified rehab that is needed for the 
lighthouses, funded through a tonnage tax that currently all 
the funding of the tonnage tax goes to the operations of the 
United States Coast Guard.
    Mr. Lindquist. One difference in interpretation I believe. 
This does not utilize the tonnage tax to pay for this program. 
The tonnage tax revenue is referenced as a ceiling or a maximum 
in terms of the total amount of available for this grant 
program.
    Senator Burr. OK. So the authors offered no offset from the 
standpoint of----
    Mr. Lindquist. No. As authorization bill, it does not have 
the offset. That is true.
    Senator Burr. How much is currently being funded from the 
Michigan legislature for Michigan lighthouses?
    Mr. Lindquist. The only money going out for Michigan 
lighthouses is from the license plate, and we have 
approximately $200,000 per year generated through those people 
who are purchasing a Michigan lighthouse license plate. That 
translates into for approximately 18 of our 120--18 grantees in 
any particular year, usually a grant on the order of $15,000 to 
$35,000 depending on the nature of the application. A person or 
a group that receives money does not receive money the 
following year.
    Senator Burr. I understand the tremendous tourism benefit 
that these lighthouses provide in addition to the pride of a 
community at preservation of a historic structure. But 
rationalize for me why it is in the United States taxpayers' 
interest if the State of Michigan or the State of North 
Carolina or any other State that is home to these historic 
properties do not see the value to their own tourism to put 
their own money in it over and above what has become, I think, 
a novel thing in many States, and that is designer license 
plates that law enforcement is now having a very difficult time 
distinguishing whose license plate it is from the standpoint of 
State. We will probably see a great curtailing of the number of 
these personalized license plates for that one reason. But 
share with me why this is in the taxpayers' interest of the 
country.
    Mr. Lindquist. First of all, from the local perspective, to 
the extent that we are talking about local money, local 
investment, and local support for an organization that is 
attempting to maintain and keep a property open to the public, 
there is absolutely no question about the intent and desire of 
those communities to do so. This is not just a recent 
development, but it is certainly one that is commonly reported 
these days.
    Because of the plight that all of our States have been 
encountering since 2001, the amount of money that is available 
locally through revenue sharing from State governments has been 
progressively and systematically nearly being reduced to the 
point where now there is no State role in the financing of 
local projects. This is a Michigan example but I believe that 
it is common in most State governments these days. If they had 
the money, absolutely.
    I think that you would probably--but these lighthouses are 
located in rural areas. Many of them are located in areas where 
you have a county government with all the pluses and minuses of 
trying to run a county government. These are people who have 
second and third jobs in addition to perhaps serving on their 
county councils. These county governments will do whatever they 
can to give moral support, but their total budgets can very 
easily be a shadow of what the lighthouse requirements----
    Senator Burr. So if for some reason I said to you, geez, we 
could do this but let us incorporate it in the pot of money 
that is already going to that county. We will let the county 
decide, are you going to build the road, are you going to do 
the sidewalk, are you going to have a partnership with a 
nonprofit organization. Let us just say we put all the moneys 
together that we send to localities. Where do you think 
lighthouses are going to be in their choice?
    Mr. Lindquist. I think for some of the larger communities 
where lighthouses are located and it is not only a focal point 
but is the identity for that community, the preservation and 
protection of that lighthouse, especially for those people 
involved in tourism, will be a high priority.
    The question is whether or not it ranks equally to other 
priorities of that government, specifically security of its 
citizens, provision of protection from fires and whatever else 
untoward might happen within the community. We would always 
envision--and I think this is the case perhaps regardless of 
what jurisdictional level we are looking at--that the care and 
the safety of its citizens will be cared for primarily and 
principally before the other interests.
    Senator Burr. I think you and I totally agree with that, 
and the likelihood is that as they prioritize the needs in that 
local community, lighthouses are going to be on that second 
half of that list. There are going to be those things up top 
that every community is struggling with right now.
    I might say I have a piece of property in Michigan in Mason 
County. Governor Engler was nice enough, before he left office, 
to make those of us who did not live there permanently pay one 
and a half times the property tax so that we could educate 
Michigan kids. So I do not go into this with a great deal of 
warm and fuzzies relative to the way Michigan treats outsiders, 
but I also know that I have gotten numerous times letters from 
Mason County talking about the incredible unemployment, the 
incredible needs in the community. Oddly enough, I have never 
seen a community reach out to property owners for volunteer 
donations to help county government fill the needs, whether 
that is food, whether it is clothes of the residents. But it 
has happened. So I understand just how desperate it is up 
there.
    Let me just suggest to you I think it is good that we try 
to preserve this piece of history. I am not sure that the 
Federal Government is the appropriate person to come to the aid 
of these projects, and that is with full recognition of just 
how tough it is from a standpoint of you as an entity of a 
volunteer organization who tries to raise money statewide or 
nationally or the community's desire that that piece be filled 
out.
    But I think we are at a point where there is a 
prioritization at a local level, there is a prioritization at a 
State level, and contrary to what the American people believe, 
we are out of money here. We have got to take it from 
somewhere. I think we would have the same prioritization 
problem as we went through having many things that rank above 
this that do fill the need of safety, all the things that a 
local community would go through.
    So I will continue to watch the progress of this. I cannot 
make you any promises relative to any support I can bring to 
it. I would encourage you to look for other avenues or to 
encourage Senator Stabenow or Senator Levin to find other 
funding mechanisms that might be appropriate, but clearly, it 
would only be where you found a program that there was not a 
need for and you replaced it with something historic.
    Let me ask this. Do you have any idea of how much money 
currently is in the grant stream for lighthouse preservation?
    Mr. Lindquist. I do not believe that there is an existing 
grant program through the Federal Government for lighthouse 
preservation and protection. There are grant programs existing, 
Save American Treasures, for example, and other programs 
congressionally controlled or legislatively controlled where 
funding through the grant program has been made available for 
lighthouse preservation and protection. But to my knowledge, 
there is no dedicated grant program for lighthouses.
    Now, potentially within the historic preservation program, 
there are grants through the historic preservation offices. 
There are Federal funds there. To the extent that they have any 
State appropriation which is also dedicated for the same 
purpose, then there may be a grant program through which a 
lighthouse organization might apply.
    Senator Burr. Let me make you this promise today. I have 
already asked my committee staff to review all Federal grant 
programs and to make me a list of all the appropriate grant 
programs that lighthouses would be eligible to go in and 
compete. When I get that list, I will share it with you----
    Mr. Lindquist. Thank you.
    Senator Burr [continuing]. Encourage you and others, 
including my State of North Carolina--you know, there is a big 
difference.
    My good friend here may be thinking, well, the Federal 
Government put a lot of money into Hatteras when it was moved. 
That is owned by the National Park Service. It is still part of 
the Park Service. That is not one that was gifted, was titled 
over to a nonprofit, to a community. It is an integral part of 
our tourism business on the Outer Banks. We have got others 
that are part of the National Park Service. We have got others 
that are not and were titled over and organizations did go 
through the rehab and preservation, and they are tremendous 
tourism tools. So I recognize the value of it.
    Let me work with you to identify some other areas that 
potentially might have an interest in funding some of this 
preservation and I hope that they bring some added options to 
you. I thank you.
    Mr. Lindquist. Thank you very much.
    Senator Udall. Thank you, Senator Burr, for this very 
informative and illuminating discussion.
    Thank you both for taking the time to come to Washington, 
DC, on behalf of the causes and projects that you hold dear.
    As the hearing closes, I would like to make note that some 
members of the committee may submit additional questions in 
writing, and if so, we may ask you to submit answers for the 
record. To that end, we will keep the hearing record open for 2 
weeks to receive any additional comments.
    With that, the subcommittee is adjourned.
    [Whereupon, at 3:49 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

               Questions for Dan Wenk From Senator Wyden
    Question 1. Following up on the Administration's request to try to 
find a cooperative management approach, can you point to any successful 
examples where the Forest Service and Park Service have successfully 
co-managed a Park unit and its surrounding natural resources, such as 
the Cave and its watershed?
    Question 2. Isn't it the case that even if a cooperative agreement, 
such as a Memorandum of Understanding, was entered into by the agencies 
it could be easily terminated or modified and therefore provides no 
permanent protection for this natural treasure?
    Question 3. How is your testimony, which appears to be a shift from 
the 1998 General Management Plan--which recommends expansion--
consistent with the Centennial Challenge, which seeks to expand and 
enhance National Parks, and the Park's own 2007 Centennial Strategy 
document which lays out a goal of providing further education on the 
plan to expand the boundary?
    Question 4. Mr. Wenk, my understanding is that every National Park 
has a fire management plan and officer assigned to it and that last 
year's fires in California demonstrated that National Park Service 
lands have responded well in slowing down advancing fires because they 
have been well managed to withstand these fires, including undertaking 
necessary forest health projects, such as hazardous fuels removal. Can 
you elaborate on the experience the National Park Service have in 
managing lands for fire resiliency?
    Question 5. What fire and forest restoration activities have been 
undertaken by the Park Service in the Oregon Caves National Monument?
    Question 6. Can you tell me of any reason why you believe the 
National Park Service would be unable to undertake the forest health 
projects needed in the area proposed for expansion?
    Question 7. My legislation includes language providing for forest 
management activities in the land proposed for inclusion in the 
Monument. Do you believe this language is sufficient or is further 
legislative language required to ensure that forest health treatments 
occur?
    Question 8. Can you provide me a copy of all the correspondence 
between the National Park Service and the Forest Service regarding the 
potential contamination of the Caves' drinking water supply from 
grazing?
                Questions for Dan Wenk From Senator Burr
                 s. 715 lighthouse preservation grants
    Question 1a. The original intent of the National Lighthouse 
Preservation Act was to provide for the transfer of historic 
lighthouses no longer needed by the Federal Government to Non-Federal 
entities under the condition that they would assume management and 
preservation responsibilities for the lighthouses. Does this new grant 
program contradict the original intent of the bill by forcing the 
Federal Government to pay for maintenance of these lighthouses?
    Question 1b. A reversion clause exists within the National 
Lighthouse Preservation Act, which states that if the non-Federal 
entities are no longer able to maintain their acquired lighthouses, 
then control and management of the lighthouses would revert to the 
Federal Government. Do you believe it was the intent of the original 
law to provide for Federal Government funding to the non-Federal 
entities? If so, why was the reversion clause placed in the Act?
    Question 1c. How will funding for this program affect other 
programs funded through the National Historic Preservation Act?
                 s. 1270 oregon caves national monument
    Question 2a. I have a February 26, 1998 letter from then Siskiyou 
National Forest Supervisor Michael Lunn to then Oregon Caves 
Superintendent Craig Ackerman related to the Cave's Draft General 
Management Plan and EIS that is the most disparaging letter I have seen 
between two agencies. It accused the Oregon Caves management team of 
misrepresentation of facts, far reaching speculative statements, 
repeated statements that are not supported by science, and a general 
failure to recognize either the Forest's land management plan for the 
area, or the Pacific Northwest Forest plan's management scheme for the 
area.

          i. Given the Park Service's inability to faithfully describe 
        the land management that was planned for this area by the 
        Forest Service, as well as its apparent willingness to cook the 
        science in its document; why is the Park Service a more 
        trustworthy land management agency to oversee management of 
        this area?

    Question 2b. I also have an article from a 2003 National Cave and 
Karst Management Symposium where Mr. William Halliday, founder of the 
Cascade Grotto Speleological Society, and Mr. Jay Swoford, founder of 
Friends of Oregon Caves, both long-time caving experts called the 
transfer of the Oregon Cave National Monument to the Park Service an 
``irresponsible political action.''

          i. Can you tell us why two wrongs will make a right in this 
        instance?
          ii. If in the eyes of some, the Park Service has never 
        invested the time and money deserved by the Cave, why should we 
        be enlarging the area of the Cave the Park Service would 
        oversee now?
          iii. If this Committee were to add an provision that required 
        the Park Service to transfer a like amount of current National 
        Park Service land, in Oregon, to the United States Forest 
        Service would you still support this legislation?

    Question 2c. How many acres of Condition Class II or III forestland 
currently managed by the Forest Service are included in the areas being 
proposed for expansion of the Oregon Caves National Monument?
    Question 2d. If these lands are left untreated what risk does this 
pose to the National Forest, the neighboring Oregon Caves Monument and 
the only road access into the Monument via State Highway 46?
    Question 2e. Are these lands at a high risk of catastrophic 
wildfire?
    Question 2f. What is the Forest Service doing to reduce the risk of 
catastrophic wildfire to the forests surrounding the Oregon Caves 
Monument and how long will it take to accomplish this effort?
    Question 2g. Is there anything keeping the agency from completing 
these projects over the next several years?
    Question 2h. Is the Park Service committed to complete this work 
and then maintain these fuel breaks if these lands are turned over to 
the Oregon Caves Monument?
    Question 2i. Has the Forest Service prepared any NEPA documents for 
forest management and hazardous fuels projects to address the fire 
hazard in the area through forest thinning and fuels breaks? If so, how 
many acres have been approved for treatment? At what cost were these 
NEPA documents prepared?
    Question 2j. Do you have a detailed set of forest management and 
thinning projects planned within the proposed monument expansion area 
and when are these projects scheduled to be implemented? Are any of 
these projects scheduled to be implemented in Fiscal Year 2010 and 
Fiscal Year 2011? If so, please provide detailed information on those 
specific planned projects.
    Question 2k. If this expansion legislation were enacted as written 
this year what will happen to these planned projects? What will happen 
to the NEPA analysis and documentation already prepared?
                                 ______
                                 
             Questions for Joel Holtrop From Senator Wyden
    Question 1. Following up on the Administration's request to try to 
find a cooperative management approach, can you point to any successful 
examples where the Forest Service and Park Service have successfully 
co-managed a Park unit and its surrounding natural resources, such as 
the Cave and its watershed?
    Question 2. Isn't it the case that even if a cooperative agreement, 
such as a Memorandum of Understanding, was entered into by the agencies 
it could be easily terminated or modified and therefore provides no 
permanent protection for this natural treasure?
    Question 3. The Forest Service was provided an opportunity to 
comment and did in fact provide comments to the 1998 General Management 
Plan--the Forest Service submitted correspondence with comments and the 
National Park Service undertook changes to be responsive to those 
comments. Why doesn't that constitute adequate interagency consultation 
regarding the expansion?
    Question 4. Can you provide the comments the Forest Service 
submitted to the National Park Service for the 1998 General Management 
Plan?
    Question 5. Can you provide the comments the Forest Service has 
submitted to the National Park Service regarding transfer of land to 
the National Park Service?
    Question 6. What specifically do you intend to produce and commit 
to in the next six month to ensure adequate protection of the Caves 
resources?
    Question 7. Can you detail and provide evidence of any special 
measures the US Forest Service has undertaken to further protect the 
natural resources and water supply of the Oregon Caves National 
Monument?
    Question 8. Can you follow up with me and provide me a copy of all 
the correspondence between the National Park Service and the Forest 
Service regarding the potential contamination of the Caves' drinking 
water supply from grazing?
    Question 9. Can you provide notices of violations issued on the Big 
Grayback Allotment?
    Question 10. Can you provide the Resource Management Plan direction 
on grazing in Research Natural Areas and Botanical Areas in the Big 
Grayback Allotment?
    Question 11. Your testimony mentions the Forest Service's planned 
fuels management and forest restoration activities. I certainly support 
performing those important projects. Can you tell us what the priority 
of those thinning projects in the Rogue River Siskiyou National Forest 
is, what percentage of those projects has been completed and whether 
all funding has been secured to complete those projects?
    Question 12. My bill specifically includes language providing for 
forest management and the recent fires have illustrated the Park 
Service's capabilities in managing for fire. Can you tell me why the 
Agency believes the National Park Service would be unable to complete 
those projects if the land was transferred to their management?
    Question 13. Do you believe additional legislative language is 
required to ensure that such treatments can occur, either under the 
Forest Service or the National Park Service?
              Question for Joel Holtrop From Senator Burr
                 s. 1270 oregon caves national monument
    Question 1a. How many acres of Condition Class II or III forestland 
currently managed by the Forest Service are included in the areas being 
proposed for expansion of the Oregon Caves National Monument?
    Question 1b. If these lands are left untreated what risk does this 
pose to the National Forest, the neighboring Oregon Caves Monument and 
the only road access into the Monument via State Highway 46?
    Question 1c. Are these lands at a high risk of catastrophic 
wildfire?
    Question 1d. What is the Forest Service doing to reduce the risk of 
catastrophic wildfire to the forests surrounding the Oregon Caves 
Monument and how long will it take to accomplish this effort?
    Question 1e. Is there anything keeping the agency from completing 
these projects over the next several years?
    Question 1f. Is the Park Service committed to complete this work 
and then maintain these fuel breaks if these lands are turned over to 
the Oregon Caves Monument?
    Question 1g. Has the Forest Service prepared any NEPA documents for 
forest management and hazardous fuels projects to address the fire 
hazard in the area through forest thinning and fuels breaks? If so, how 
many acres have been approved for treatment? At what cost were these 
NEPA documents prepared?
    Question 1h. Do you have a detailed set of forest management and 
thinning projects planned within the proposed monument expansion area 
and when are these projects scheduled to be implemented? Are any of 
these projects scheduled to be implemented in Fiscal Year 2010 and 
Fiscal Year 2011? If so, please provide detailed information on those 
specific planned projects.
    Question 1i. If this expansion legislation were enacted as written 
this year what will happen to these planned projects? What will happen 
to the NEPA analysis and documentation already prepared?
    Question 1j. If this Committee were to add an provision that 
required the Park Service to transfer a like amount of current National 
Park Service land, in Oregon, to the United States Forest Service would 
you support this legislation?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Jack H. Swift, Vice-Chairman and Spokesman, Southern 
                        Oregon Resource Alliance
    Southern Oregon Resource Alliance is a non-profit association of 
individuals, organizations, and businesses dedicated to the 
conservation and sustained utilization of natural resources in the 
southern Oregon area. SORA has been active and influential in the 
determination of government policies in these regards for several 
decades. In that regard SORA is representative of a wide array of 
interests in the area, both public and private.
    In terms of conservation policy SORA finds itself in exact accord 
with the policy reasons advanced by Teddy Roosevelt when he advocated 
the national forest system. Our natural resources should not be 
squandered and eradicated. The wealth of the nation depends upon their 
sustained utilization. The profits derived from their responsible 
utilization should accrue to the public as well as private enterprise. 
In that regard, we see the National Forest system as the better manager 
of these assets.
    The Oregon Caves are not a major tourist attraction. There has been 
no serious or studied business model or plan proposed that supports a 
contention that the expansion of the monument will change this reality. 
The Oregon Caves cannot compete with the scope and grandeur of the 
Carlsbad Caverns. They are at best a side trip located between the 
glory of the redwoods of northern California, the Smith River drainage 
to the south, and the draw of Crater Lake to the north. The trip 
between these two genuine attractions transits the Illinois Valley, 
from which Oregon Caves N.M. is accessed. The Illinois Valley is a 
semi-arid geography in which trees take twice as long to grow and 
mature as in areas to the south and north. The valley itself is a 
rather bleak perspective. It is not a Yellowstone of the West. Simply 
acquiring more of its surrounding hills for National Park management 
will do nothing to enhance its appeal.
    The economic management of the lands in the proposed expansion 
under national forest policies is more than beneficial to the economy 
of southern Oregon whose timber industry has been devastated by the 
Northwest Forest Management Plan in combination with the current 
economy. Revenues from the public lands are crucial to the support of 
local schools. The expansion proposed will be a loss to those interests 
with no mitigation.
    The fire management of these lands under national forest policies 
is infinitely preferred to those of the national park system. We have 
the egregious example of the Yellowstone fire. Locally, we have the 
recent experience of the Biscuit fire which began in a wilderness area 
precluding effective rapid response. It should be kept in mind that 
under the Northwest Forest Management Plan and traditional 
Congressional funding for the national forest, effective fuel 
management has not existed for almost two decades. We are discussing an 
area which historically has been visited by low intensity fuel 
eradication fires every ten--twelve years. There have been no such 
fires for decades and manual eradication has been non-existent. Again 
this is a semi-arid geography and the intermixed and adjacent BLM lands 
in the area are all rated extreme hazard for a catastrophic stand 
replacement event. We doubt sincerely that the national park service 
appreciates the hazard, has the resources to undertake the management 
required or even operates under the philosophical inclination to do so.
    In sum, we see the expansion as a bad idea and wish our opposition 
to be a matter of record. Thank you.
                                 ______
                                 
 Statement of Joseph Vaile, Klamath-Siskiyou Wildands Center, Ashland 
 OR; Sean Smith, National Parks Conservation Association, Seattle, WA; 
   Barbara Ullian, Friends of the Kalmiopsis, Grants Pass, OR; Shane 
       Jimerfield, Siskiyou Project, Grants Pass, OR, on S. 1270
    On behalf of the undersigned organizations we appreciate the 
opportunity to offer written testimony before the Subcommittee on 
National Parks of the Senate Committee on Energy and Natural Resources 
Committee concerning S. 1270 the Oregon Caves Boundary Adjustment Act 
of 2008 would offer tremendous ecological and economic benefit through 
the retirement of the Big Grayback and Billy Mountain grazing permits 
and adjusting the boundaries of the Oregon Caves National Monument 
(OCNM) to (1) include the surface drinking water supply for the 80,000 
visitors annually; (2) protection additional surface and subsurface 
natural resources for current and future generations of Americans; and 
(3) provide local rural economic development opportunities. Legislation 
also proposes to add 7.6 miles of the Cave Creek watershed to the Wild 
and Scenic Rivers Act.
            background on the oregon caves national monument
    The OCNM is a 480-acre national monument located in the botanically 
rich Siskiyou Mountains. The monument is important to the economy and 
identity of the local area; the nearest town is named Cave Junction 
after the Oregon Caves. OCNM receives about 80,000 visitors annually, 
but it is one of the smallest natural area units (in area) of the 
National Park System. Oregon Caves is the only cave system in the 
nation with its particular geologic history. It is one of the few 
marble caves in the nation available for public tours and is longest 
tour cave west of the Continental Divide. The cave tour route, with its 
twists, turns, climbs, descents, narrowness and length is one of the 
most adventurous cave tour routes in North America.
    A perennial stream, the ``River Styx,'' (an underground portion of 
Cave Creek) flows through part of the cave system. The cave ecosystem 
provides habitat for numerous plants and animals, including some state 
sensitive species such as Townsend's big-eared bats and several 
caveadapted species of arthropods found only on the national monument. 
While the 1909 proclamation that established the national monument 
focused on unique subsurface resources, the significance of the land 
surface above the cave must not be overlooked. Surface processes, 
especially through the exchange of air, water and food, closely 
influence many of the geological and biological processes within the 
cave.
    Recent discoveries indicate that this network of caverns possesses 
a significant collection of Pleistocene aged fossils, including jaguar 
and grizzly bear. Grizzly bones that were found in the cave in 1995 
were estimated to be at least 50,000 years old--the oldest known from 
either North or South America. The monument preserves an excellent 
example of the Siskiyou Mountain's primeval forest: an area with one of 
the highest percentages of endemic plants in the country.
                   the need to adjust the boundaries
    When the OCNM was established in 1909, the small rectangular 
boundary was thought to be adequate to protect the cave. Through the 
years, scientific research and technology has provided new information 
about cave ecology, how it is influenced by its surface environment and 
related hydrological processes. The current 480-acre boundary is 
insufficient to adequately protect this cave system and its unique 
contributions to local economies and our national heritage. The 
National Park Service proposed expansion numerous times, first in 1939, 
again in 1949 and most recently in 1999. Most of the boundary 
adjustments proposed in S. 3148 are part of the 1998 General Management 
Plan for the monument when the National Park Service deemed the greater 
Lake Creek watershed suitable for inclusion in the OCNM.
    We provide the following excerpts from 1999 U.S. DOI National Park 
Service General Management Plan, so that the committee can be assured 
that the most comprehensive study of this issue to date 
incontrovertibly concluded that expansion was in the best interest of 
the Caves and the nearby communities:

          The transfer of the 3,410 acres of adjacent federal land 
        within the Siskiyou National Forest to the Monument are 
        included in the proposed action because they are integral to 
        the future management, protection and public use of the Oregon 
        Caves National Monument...
          ...the present size and rectangular configuration of the 
        Monument at 484 acres is inadequate to provide for the long-
        term protection and public use of the Monument, and does not 
        provide a logical topographical related boundary that makes 
        sense from a land management perspective. The current Monument 
        boundary does not ensure the long term protection of cave 
        resources, nor does it ensure protection of the Lake Creek and 
        upper Cave Creek watersheds, the potable water supply that 
        serves both visitors and Monument and concession employees, and 
        the scenic foreground and middle ground views as seen from 
        various points within the Monument, or the protection of forest 
        ecology above and adjacent to the cave.
          The proposed boundary change would address all these current 
        deficiencies by providing a watershed based boundary.... The 
        proposed boundary adjustments to OCNM would help fulfill the 
        purposes for which the OCNM was established by President Taft. 
        His July 18, 1909 proclamation setting aside the caves notes 
        its, ``...unusual scientific interest and importance.'' The 
        proclamation also states that, ``...the public interest will be 
        promoted by reserving these caves with as much land as may be 
        necessary for the proper protection thereof, as a National 
        Monument.''
          The boundary change would enable the Monument managers to 
        better meet their legal responsibilities for protection of 
        Monument resources, including providing for the important 
        protection of Monument's national and visual resources and 
        protection to the upper Lake Creek watershed which is the 
        source of the Monument's public water supply...
          In order to protect cave ecology, surface and subsurface 
        hydrology, forest ecology, foreground and middle ground 
        viewsheds, and the public water supply used by employees and 
        visitors to Oregon Caves National Monument, a boundary 
        modification will be recommended. Including the 484 acres 
        already within the Monument, the modified boundary will 
        encompass approximately 4,375 acres, or an addition of 3,410 
        acres....
          Through this change, greater protection under NPS 
        administration will be afforded to the upper Lake Creek 
        watershed. Since the public water supply for the Monument is 
        located in the upper Lake Creek watershed, grazing will be 
        eliminated as a permitted use. Human use of the watershed area 
        will be limited to those uses that will be compatible with the 
        protection of a public watershed....
          Greater protection will also be afforded to upper Cave Creek 
        watershed as well, which is the principal water source of the 
        River Styx and subsurface hydrological flows into the marble 
        cave....
          Finally, since the boundary change is primarily 
        topographically based, it will also provide greater protection 
        for the foreground and most middle ground views form the 
        Monument's developed area and adjacent trails.
                  -Pages 5-8 of the 1999 General Management Plan.

       increasing visitation and advancing community development
    The boundary adjustments proposed in S 1270 are needed for several 
reasons. A larger monument would increase the monument's visibility and 
attractions. This could lengthen visit time of the OCNM leading to 
economic development in local communities. The average visit to OCNM is 
only 2.5 hours, and the most common question is, ``What can we do after 
the cave tour?'' Economic models indicate that if the 2.5-hour average 
visit were extended to a one-day visit, local businesses would 
significantly benefit from added tourist dollars. (Personal 
communication with Craig Ackermann, Superintendent, OCNM, February 20, 
2007.) The OCNM is surrounded by excellent outdoor opportunities 
including hiking, horseback riding, and bird-watching. Adjacent 
recreation opportunities should be protected within the OCNM 
boundaries, and marketed along with cave tours. In addition nearby 
Forest Service campgrounds would be incorporated into the monument.
    The four trails within the current OCNM range from 0.7-3.3 miles. A 
number of longer trails around the monument offer visitors stunning 
views. Most of the trails weave in and out of the present OCNM 
boundary, and some connect with larger hiking trail systems including 
the Boundary and Pacific Crest Trails, giving hikers access to the Red 
Buttes Wilderness, Bigelow Lakes, Mt. Elijah (named for Elijah 
Davidson, the first Euro-American to see the Oregon Caves), and other 
popular areas.
    Located in the Siskiyou Mountains of southern Josephine County, 
OCNM offers great potential for one of the state's most struggling 
economic communities by nurturing a budding tourism and recreation 
economy. According to a 1994 Illinois Valley Tourism Assessment 
developed for the Oregon Economic Development Department, Oregon Caves 
is a ``centerpiece attraction'' for the tourism industry in the 
Illinois Valley area.
    Highway 199, stretching the length of the Illinois Valley, is a 
popular travel route between Redwood National Park and Crater Lake 
National Park, as well as a corridor for visitors who travel from the 
cultural center of Ashland to visit the Pacific Coast, as well as the 
OCNM. Surveys conducted in southwest Oregon and northern California 
describe visitors to this region to be primarily families taking a 
short vacation from the metropolitan areas of Portland, Seattle, 
Sacramento, San Francisco, and southern California (Smokejumper Base 
Interpretive Plan, undated).
    Highway 199 has an annual traffic load of about one million 
vehicles. In 1992, the state estimated that 289,000 vehicles, about one 
third of the vehicles traveling Highway 199, represented tourist 
traffic. Surveys conducted at OCNM indicate that average daily spending 
per tourist group is $90. These numbers indicate that more than $26 
million in tourism dollars pass through the Highway 199 corridor 
annually (Letter to Oregon Tourism Commission from OCNM Chief of 
Interpretation Roger Brandt, 18 April 2004). Compared to neighboring 
northern California counties, where tourism dollars per tourist group 
range from $95-$154 (Sheffield, Emilyn, 1998. Northern California 
Scenic Byway Network Newsletter, Chico, California), Josephine County 
clearly has room for economic development in this sector.
    A 1995 survey of visitors at the OCNM found that the top reasons 
for travel were viewing scenery, doing something with the family, and 
to learn more about nature. (Rolloff, David, Rebecca Johnson, and Bo 
Shelby, 1995). Similar studies have found that people come to Oregon to 
indulge in their interest in outdoor recreation, nature experiences and 
historic sites (Brandt, 2004).
    During the recent Senate hearing on this bill, government officials 
with the U.S. Forest Service and National Park Service stated they'd 
like more time to work out a joint management agreement for the 
potential expansion area. The impression was left that Forest Service 
management produces the same benefits as Park Service management and 
all that is needed to produce these benefits is better coordination 
between the two agencies. However, along with ecological benefits, 
expanding Oregon Caves National Monument will generate significant 
economic benefits, but only if the expanded area is placed under the 
care of the Park Service. In NPCA's recently released report entitled 
U.S. National Park System: An Economic Asset at Risk, some parks, 
including Acadia and Point Reyes, generate economic benefits that 
exceed the government investment in their annual budgets by as much as 
14 times. The average return for all parks is for every one dollar 
invested in parks, four dollars are returned to the local economy.
    In addition, the intrinsic values of national parks also attract 
small businesses and new residents to their region, resulting in 
economic growth in areas near parks that is an average of 1 percent per 
year greater than statewide rates over the past three decades.
    In addition, National Parks and Monuments are weathering the 
economic downturn very well. In Utah for example, park visitation is up 
14 percent from the same time last year. In the Pacific Northwest, year 
to date park visitation is up nearly 90,000. Expanding the area under 
Park Service management would likely raise the area's profile and 
increase visitation even more, thereby producing expanded economic 
benefit for surrounding gateway communities such as Cave Junction and 
surrounding Josephine County.
                 fuels reduction and forest management
    It has been implied that fuels reduction or other forest thinning 
operations would not occur in the adjusted OCNM boundaries (see the 
Statement of Joel Holtrop, Deputy Chief, National Forest System of the 
U.S. Forest Service). The truth is that the National Park Service has a 
very active fire management and fuels reduction program on units where 
fire management is an issue. In fact, there is evidence that the 
National Park Service is more equipped and better funded to carry out 
fuels reduction projects in a timely and efficient manner due to larger 
budgets.
    Broadly, we agree with the Forest Service that fire and fuels 
issues are extremely important on the 1.8 million acres Rogue River-
Siskiyou National Forest. However, the OCNM boundary adjustments area 
(4,070 acres), only constitute 0.23% of the forest area, an immaterial 
portion of the landscape to affect fire behavior. We do agree that the 
Forest Service and Park Service should continue collaborating on fire 
and fuels reduction projects in this area and we support section 5(b) 
of the S. 1270 regarding forest restoration as long as it is consistent 
with the National Park Organic Act.
    Mr. Haltrop's characterization of the efforts of the Forest Service 
in the OCNM area are overstated. Through a collaborative effort with 
support from the very organizations providing this testimony, the U.S. 
Forest Service produced the East Illinois Young Managed Stands project. 
This project looked at a 70,000-acre project area and identified 
approximately 4,000 acres for treatment. Only 100 acres were identified 
in the OCNM expansion area. No other specific treatments have been 
identified to date.It is obvious that the Forest Service has more 
thinning and fuels reduction work than it could possibly accomplish on 
this 1.8 million acre National Forest. Transferring this small amount 
of land will not significantly affect the outcomes of a fire and fuels 
reduction program. Moreover, we are convinced that the Park Service 
could perform the necessary management activities to restore the 
forests to more natural fire and fuel conditions as is laid out in the 
1999 Oregon Caves GMP.
                   grazing and equitable compensation
    The undersigned also supportive of the provision the bill to 
provide for the donation of a Forest Service grazing permit and a 
Bureau of Land Management grazing lease. The Rogue River-Siskiyou 
National Forest's Big Grayback Grazing Allotment (17,703 acres) 
overlaps about half of the 4,070-acre OCNM expansion area. National 
Park Service regulations would prohibit continued livestock grazing in 
the expanded national monument. Currently livestock that use the Big 
Grayback Grazing Allotment tend to concentrate in the Bigelow Lakes 
area, a designated botanical special interest area.
    Continuing to grazing livestock on the remainder of the Big 
Grayback Grazing Allotment is problematic for several reasons. First, 
as noted, livestock concentrate in the Bigelow Lakes area. Second, 
there are two other designated botanical areas (Miller Lake, 588 acres; 
Grayback Mountain, 591 acres) and the Oliver Matthews Research Natural 
Area, where livestock grazing occurs, contrary to the purpose of the 
protective designation. In addition, there are 3,553 acres of Riparian 
Reserves, where livestock need to be limited. Parts of the allotment 
are also in the Sucker Creek Key Watershed for salmonid recovery. 
Finally, much of the allotment is in the Kangaroo Inventoried Roadless 
Area.
    Additionally, surface water sources used for the OCNM potable water 
supply are located on national forest land. Water is piped to park 
facilities where it is treated. Actions affected drainage in the 
national forest--upslope from the monument--have the potential to 
impact the monument. Activities such as mining, logging, grazing and 
stock use, have the potential to contaminate the OCNM water resources 
(OCNM General Management Plan, 1999, 8).
    The 4,758-acre Bureau of Land Management Billy Mountain Grazing 
Lease is on the on the Ashland Resource Area of the Medford District 
BLM, approximately 3/4 of a mile south of the town of Applegate in 
Jackson County, Oregon. The grazing allotment is leased by the same 
rancher that leases the Forest Service's Big Grayback Grazing 
Allotment. The allotment is next door to the rancher's base property. 
He uses the BLM allotment in the spring and the Forest Service 
allotment in the summer.
    The Billy Mountain Grazing Allotment includes the Enchanted forest, 
a grove of oak, pine and maple, and a popular hiking trail. The 
allotment is interspersed with private land and, while it is Open 
Range, there have been several complaints over the years by landowners 
dismayed by cows on their property. Billy Mountain also includes 
habitat for the federally protected Gentner's fritillary (Fritillaria 
gentnerii), a member of the Lily family. This rare plant is found in 
the Applegate Valley in and near allotment. Its growing season includes 
the period when livestock may be using the allotment.
    Expansion of the national monument makes continued grazing of the 
Big Grayback Grazing Allotment very problematic, which therefore makes 
continued grazing of the Billy Mountain Grazing Allotment also 
problematic.
    Conservation interests (specifically Klamath-Siskiyou Wildlands 
Center) and rancher on the allotment have an understanding in which the 
rancher will received compensation from KS Wild in return his donation 
of his federal grazing permit and lease to the federal government, as 
provided in the legislation.
    In the spring of 2008, the Forest Service issued a decision to 
continue grazing on the Big Grayback Grazing Allotment for 10 years. 
While not reducing the amount of livestock grazing for the allotment, 
the decision requires investments in fences and changes in management 
to prevent overgrazing of Botanical Areas and to evenly distribute 
livestock. To comply with its own forest management plan, the Forest 
Service requires a 1/4-mile fence must be built in the Bigelow Lakes 
area.
    Fencing Bigelow Lakes is controversial from the standpoint of both 
conservation and ranching interests because not enough of the botanical 
area will be fenced, fences are expensive, often fail and do not last. 
Fencing is a bad solution because of the high initial cost ($7,030/mile 
according to the Forest Service), as well as the high ongoing 
maintenance costs. Fences in forests and deep snow require endless 
maintenance; they don't always work and are always an impediment to 
wildlife. The agency places additional requirements on the permittee to 
keep livestock out of certain areas.
                            costs of grazing
    Both the ecological and fiscal costs of various alternatives to 
continue livestock grazing on the Big Grayback allotment are such that 
the best and least costly option is to simply buyout the grazing permit 
and not spend tax dollars endlessly to build and maintain fences.
    The annual income to the federal treasury from the Forest Service 
grazing permit and the BLM grazing lease is $118.13. The cost of 
preparing the Environmental Assessment to update the Big Grayback 
Grazing Allotment is at least $100,000. On average, the Forest Service 
and BLM lose $12.26/AUM and $7.64/AUM respectively, (GAO, 2005. 
Livestock Grazing: Federal Expenditures and Receipts Vary, Depending 
Upon Agency and Purpose of Fee Collection) or an average of $8,174.80 
annually. Based on the simple analysis above, the taxpayer would save 
an estimated $8,056.68 annually, by not grazing livestock in the two 
allotments.
                               conclusion
    In sum, adjusting the boundaries of the OCNM is in the best 
interest of the Oregon Caves resources, the local communities where 
this is a ``centerpiece attraction'' and businesses in the region that 
are dependant on a thriving tourism economy.
                                 ______
                                 
                                     PugetSoundPartnership,
                                        Olympia, WA, July 22, 2009.
Hon. Patty Murray,
173 Russell Senate Office Building, Washington, DC.
    Dear Senator Murray: Thank you for your leadership in sponsoring 
S.635, which would designate a segment of Illabot Creek in Skagit 
County as a component of the National Wild and Scenic Rivers System. 
S.635 is an important element to accomplishing Washington State's goal 
to restore and protect the Puget Sound by 2020.
    The Puget Sound Partnership was established by the Washington State 
Legislature to unify, coordinate and prioritize all of the work 
currently being done in Puget Sound. Working collaboratively with 
regional scientists, policy experts, businesses, environmental 
organizations, tribes, all levels of government and citizens all around 
the Sound, we created the Action Agenda--a roadmap for the Sound's 
restoration and protection.
    The designation of the Pratt River and expansion of the Alpine 
Lakes Wilderness is a highpriority in the Action Agenda (A.2.2 on page 
38). As you know, the protection of intact habitat is one of the most 
important, cost effective and sustainable tools for protecting 
ecosystem structures, processes, and functions. Wild and Scenic 
designation protects intact and high quality aquatic and riparian 
habitat, and we appreciate your leadership to include Illabot Creek in 
Skagit County.
    Thank you again for your leadership in sponsoring S.635. We look 
forward to working with you and your staff to advance this important 
bill, as well as the companion proposal by Representative Larsen, H.R. 
1593.
            Sincerely,
                                            David D. Dicks,
                                                Executive Director.
                                 ______
                                 
                                           American Rivers,
                                     Washington, DC, July 20, 2008.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate, Washington, DC.
Hon. Richard Burr,
Ranking Member, Subcommittee on National Parks, U.S. Senate, 
        Washington, DC.
    Dear Chairman Udall and Ranking Member Burr: On behalf of American 
Rivers' 65,000 members and supporters across the nation, thank you for 
holding a hearing on legislation that will designate outstanding rivers 
in Oregon and Washington as National Wild and Scenic Rivers. American 
Rivers strongly supports S. 635, to designate Illabot Creek in Skagit 
County, Washington as a component of the National Wild and Scenic 
Rivers System, and S. 1270, the Oregon Caves National Monument Boundary 
Adjustment Act of 2009.
                             illabot creek
    Wild and Scenic River designation of Illabot Creek in Skagit 
County, Washington is a well-deserving addition to the Skagit Wild and 
Scenic River system, designated in 1978. Illabot Creek has outstanding 
fish and wildlife values that would be protected and enhanced by Wild 
and Scenic River designation. Illabot Creek provides crucial habitat 
for threatened wild Chinook salmon, steelhead and bull trout as well as 
for pink, coho, and chum salmon, and is one of the two most productive 
bull trout streams in the entire Skagit River system. Due to the strong 
salmon presence, Illabot Creek attracts a large number of bald eagles, 
which roost at night in the stands of mature and old-growth forest 
along the creek. The Skagit River Bald Eagle Natural Area is regionally 
famous for the magnificence of its bald eagle population.
    Significant investment has been made at the local level to protect 
this special area, including ongoing salmon recovery efforts in the 
Skagit basin. S. 635 will complement these investments and will ensure 
permanent protection for Illabot Creek's free-flowing character, water 
quality and outstanding fish and wildlife values. Additionally, 
protecting headwater streams like Illabot Creek is a critical component 
of Puget Sound health and recovery and can also bring economic benefits 
to the surrounding region by supporting recreation and tourism and 
protecting the region's quality of life.
                     oregon caves national monument
    The Oregon Caves National Monument (Monument), located in the 
botanically rich Siskiyou Mountains, hosts a spectacular cave system 
with a rich geologic history and a river system which provides clean 
drinking water for the Monument, and is nationally significant for its 
hydrological, ecological and geological features. Designation of Cave 
Creek and its tributaries, Lake Creek, No Name Creek, Panther Creek, 
Upper Cave Creek, and the River Styx, as National Wild and Scenic 
Rivers would protect these outstanding values.
    The cave resources of the Monument are directly affected by water 
entering the cave. The River Styx is a unique segment of Cave Creek 
that flows underground through the cave system and significantly shapes 
the subterranean geologic formations and biological processes within 
the caves. Surface water percolates through the soil, acquiring carbon 
dioxide from sources such as decaying plant materials. This interaction 
forms a weak carbonic acid that dissolves calcium carbonate from the 
bedrock as it percolates downward. When the solution reaches the cave, 
the calcium carbonate is deposited, thus creating the formations inside 
the cave. Changes in the chemical and biological composition of the 
water can permit changes in the processes affecting the cave. 
Protecting the River Styx as the first underground Wild and Scenic 
River, is therefore fundamental to protecting and maintaining these 
subterranean processes.
    Cave Creek and its tributaries are part of the larger Wild and 
Scenic Illinois River watershed, which itself is a tributary of the 
Wild and Scenic Rogue River watershed. The cold waters and many miles 
of spawning and rearing habitat for salmon and steelhead are critical 
not only for the survival of these fish, but for the economic 
livelihoods of the multi-million dollar sport and commercial fishing 
industries that rely on healthy native fish runs in the region. A 
recent economic study by ECONorthwest found that salmon and steclhead 
in the larger Rogue River watershed in southern Oregon provide more 
than .5 billion in economic benefits each year to West Coast residents. 
In addition, Lake Creek is the main drinking water source for the 
Monument, and Wild and Scenic designation would preserve this clean 
drinking water source into the future.
    Thank you again for holding a hearing on S. 635 and S. 1270. 
American Rivers looks forward to working with you and your staff to see 
these important pieces of legislation enacted into law this Congress.
            Sincerely,
                                               David Moryc,
                                 Senior Director, River Protection.
                                 ______
                                 
                                       Hampton's Rock Shop,
                                          Kerby, OR, July 18, 2009.

    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks;
    We are small Southwest Oregon business owners living here in the 
Illinois Valley. We would very much like to submit, to you, our 
approval of S. 1270 (and it's `twin H.R. 2889) and support this 
legislation to expand the boundary of the Oregon Caves National 
Monument. This expansion will increase visitation, improve the drinking 
water at the Oregon Caves Chateau and protect the many resources 
associated with the Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial.
            Thank you,
                              Gabrielle & Fredrick Hampton.
                                 ______
                                 
Statement of James A. Minervini, DC, Chiropractic Wellness Center, LLC, 
                           Cave Junction, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks;
    We are small Southwest Oregon business owners living here in the 
Illinois Valley. We would very much like to submit, to you, our 
approval of S. 1270 (and it's `twin H.R. 2889) and support this 
legislation to expand the boundary of the Oregon Caves National 
Monument This expansion will increase visitation, improve the drinking 
water at the Oregon Caves Chateau and protect the many resources 
associated with the Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
  Statement of John L. Gardiner, PhD, PE Oregon, Suri Futures, Inc., 
                           Cave Junction, OR
    To the Senate Committee of Energy and Natural Resources and Senate 
Subcommittee on National Parks;
    As a small business owner in Cave Junction and the Illinois Valley 
here in Southern Oregon, I want to submit my approval of S. 1270. I 
support this legislation to expand the boundary of the Oregon Caves 
National Monument.
    This expansion will increase the tourism economy, bring more 
visitation dollars coming into SW Oregon, and it protects the drinking 
water at the Oregon Caves Chateau. All with plenty of support from the 
local community!
    Additionally, it would be a significant gift to the American people 
to pass this legislation while we're celebrating the 75th Anniversary 
of the Chateau, the 100th Anniversary of the Oregon Caves National 
Monument and Oregon's Sesquicentennial.
    This kind of thinking represents the innovation needed to jump-
start the New Economy, and is just exactly what is needed now to bring 
sustainable jobs to our region. We need standing trees conserving 
carbon in the soil for the long term. Expanding the Oregon Caves 
National Monument takes us all in the right direction.
    Thank you for supporting S. 1270.
                                 ______
                                 
     Statement of Kerry Whitehead, Owner, Renewable Energy Systems
    Greetings!
    As a small business owner in Cave Junction and the Illinois Valley, 
directly involved in resource conservation and environmental 
stewardship and sustainability, I want to submit my approval of S. 1270 
(and its twin HR 2889) and support this legislation to expand the 
boundary of the Oregon Caves National Monument. This expansion will 
increase visitation to the National Monument and it help to improve the 
watershed feeding the Illinois valley. This will create a win-win 
situation to both our ecomomy and our environment.
    The timing of this legislation could not come at a more poignant 
time as we are celebrating the 75th anniversary of the Chateau located 
within the boundaries of the National Monument, as well as the 100th 
anniversary of the founding of the Oregon Caves National Monument and 
also Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
                 Statement of Dr. Dave Perry, Selma, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks;
    I am a retired professor of forest ecology living here in the 
Illinois Valley. I would very much like to submit, to you, my approval 
of S. 1270 (and it's `twin H.R. 2889) and support this legislation to 
expand the boundary of the Oregon Caves National Monument. This 
expansion will increase visitation, improve the drinking water at the 
Oregon Caves Chateau and protect the many resources associated with the 
Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
  Statement of Jusint, Lisa, Jade, & Tao Rohde, Rogue Natural Living, 
                           Cave Junction, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks;
    As a small business owner in Cave Junction and the Illinois Valley 
here in Southern. Oregon, I want to submit my approval of S. 1270 (and 
it's twin HR 2889) and support this legislation to expand the boundary 
of the Oregon Caves National Monument. This expansion shall increase 
visitation and improve the tfrinking water at the Oregon Caves Chateau.
    Additionally, it will be a nice touch and a generous gift to the 
American people to do this while we are celebiating the 75th 
Anniversary of the Chateau, the 100th Anniversary of the Oregon Caves 
National Monument and Oregon's Sesquicentennial.
    Our family moved to this area for the quality of life and natural 
beauty. We have come to love the area near the caves for it's great 
hiking trails and natural wonders. We believe that expanding the 
monument will help bring visitors here and improve our local tourism 
economy.
    Thank you.
                                 ______
                                 
      Statement of Robert Ward, President, CEO, Home Valley Bank, 
                            Grants Pass, OR
    As a community bank in Josephine County, Home Valley Bank believes 
in supporting our community and supporting the positive changes and 
growth within the Illinois Valley. With the 100th Anniversary of the 
Oregon Caves National Monument upon us we would like to express our 
strong support for the legislation to expand the boundary of the Oregon 
Caves National Monument.
    With the passing of the legislation we will see many positive 
changes with the expansion. We hope to see the Monument grow from 480 
acres to over 4,000 acres which will sipificantly increase recreation 
opportunities, improve the drinking water at the Chateau and most 
importantly protect the many resources associated with the Monument.
    Thank you for your time and consideration.
                                 ______
                                 
Statement of Sandi Martin, Martin's Design & Print Studio, Grants Pass, 
                                   OR
    We are small Southwest Oregon business owners living here in the 
Rogue Valley. We would very much like to submit, to you, our approval 
of S. 1270 (and it's `twin H.R. 2889) and support this legislation to 
expand the boundary of the Oregon Caves National Monument This 
expansion will increase visitation, improve the drinking water at the 
Oregon Caves Chateau and protect the many resources associated with the 
Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
               Statement of Joan M. Perry, Hair Art Thou
    We are small Southwest Oregon business owners living here in the 
Rogue Valley. We would very much like to submit, to you, our approval 
of S. 1270 (and it's `twin H.R. 2889) and support this legislation to 
expand the boundary of the Oregon Caves National Monument This 
expansion will increase visitation, improve the drinking water at the 
Oregon Caves Chateau and protect the many resources associated with the 
Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
     Statement of Cynthea M. Deas, Bonanza Consulting, Bonanza, OR
    To the Senate Committee of Energy and Natural Resources Senate 
Subcommittee on National Parks;
    As a small business owner in Cave Junction and the Illinois Valley 
here in Southern. Oregon, I want to submit my approval of S. 1270 (and 
it's twin HR 2889) and support this legislation to expand the boundary 
of the Oregon Caves National Monument. This expansion shall increase 
visitation and improve the tfrinking water at the Oregon Caves Chateau.
    Additionally, it will be a nice touch and a generous gift to the 
American people to do this while we are celebiating the 75th 
Anniversary of the Chateau, the 100th Anniversary of the Oregon Caves 
National Monument and Oregon's Sesquicentennial.
    Our family moved to this area for the quality of life and natural 
beauty. We have come to love the area near the caves for it's great 
hiking trails and natural wonders. We believe that expanding the 
monument will help bring visitors here and improve our local tourism 
economy.
    Thank you.
                                 ______
                                 
 Statement of Christine Perala Gardiner, Ph.D., WaterCycle, Inc., Cave 
                        Junction, OR, on S. 1270
    Our company WaterCycle Inc works in the field of watershed science 
and restoration. We are based here in the Illinois Valley, Josephine 
County Oregon, and our company works around the Western US.
    As a small business owner in Cave Junction, we want to submit our 
endorsement of S. 1270. We support this legislation to expand the 
boundary of the Oregon Caves National Monument.
    The watershed protected by this expansion is vital to our region, 
as a source of clean water and a priceless Wild Salmon Habitat Refuge 
for this part of the great Rogue River Basin.
    This expansion will improve the local tourism economy, and will 
protect the drinking water at the Oregon Caves complex and the Chateau 
resort. This legislation will be an important gift to the American 
people, to honor our country's commitment to protect America's 
increasingly fragile environmental heritage.
    Now is the time to do this while Oregon is celebrating the 75th 
Anniversary of the Chateau, the 100th Anniversary of the Oregon Caves 
National Monument and the State of Oregon's Sesquicentennial.
    Please lend your support to SB 1270. Thank you.
                                 ______
                                 
      Statement of Lane Cosner, SiskiyouArt.com, Cave Junction, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks;
    We are small Southwest Oregon business owners living here in the 
Illinois Valley. We would very much like to submit, to you, our 
approval of S. 1270 (and it's `twin H.R. 2889) and support this 
legislation to expand the boundary of the Oregon Caves National 
Monument This expansion will increase visitation, improve the drinking 
water at the Oregon Caves Chateau and protect the many resources 
associated with the Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
 Statement of Gloria & Bob Ziller, R.H. Ziller & Co., Inc., O'Brien, OR
    We are small Southwest Oregon business owners living here in the 
Illinois Valley. We would very much like to submit, to you, our 
approval of S. 1270 (and it's `twin H.R. 2889) and support this 
legislation to expand the boundary of the Oregon Caves National 
Monument. This expansion will increase visitation, improve the drinking 
water at the Oregon Caves Chateau and protect the many resources 
associated with the Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
 Statement of Debbie Lukas, Siskiyou Mountain Herbs, Cave Junction, OR
    I am writing as a small business owner in the Illinois Valley 
(Southern Oregon) who supports the expansion of the Oregon Caves 
National Monument. Please promote S. 1270 to expand the boundary of the 
Oregon Caves National Monument. The transfer of land from the US Forest 
Service and BLM to the US Park Service would be of benefit to the 
American public. Many of us hike and camp in the area, and this 
transfer will aid the continued enjoyment of the amazing Oregon Caves 
by local people as well as tourists for years to come! In addition, 
this transfer is necessary to protect Lake Creek, the source of 
drinking water for the Monument, which is plagued by cattle that wander 
from the other side of the mountain (BLM land).
    In the past I have worked at the Caves, and have urged this 
expansion for years. Now is the time! This is the 100-year Anniversary 
of the Oregon Caves National Monument. It is an amazing place, worth 
the long travel to visit! Please do what you can to support this 
important bill and protect our national treasures.
                                 ______
                                 
 Statement of Carol Ronan, Executive Director, Illinois Valley Family 
                      Coaltion, Cave Junction, OR
    The Illinois Valley Family Coalition is a non-profit organization 
helping needy families in Cave Junction and other areas in the Illinois 
Valley of Southern Oregon. As Executive Director of the Coalition, I 
approve and support of S. 1270 to expand the boundary of the Oregon 
Caves National Monument. This expansion shall increase visitation to 
our community and could have a profoundly positive impact on the needy 
families and general economic conditions in our area.
    Given that this is the 75th Anniversary of the Chateau, the 100th 
Anniversary of the Oregon Caves National Monument and Oregon's 
Sesquicentennial, this would be a momentous occasion for our community 
and state. This would also be a perpetual gift for the citizens of the 
USA now and for generations to come.
    I hope you will approve this very worthy legislation.
                                 ______
                                 
 Statement of Dennis H. Strayer, Retired Federal Agency Visitor Center 
                          Manager (1980-2009)

Subject: Letter of Support for the Proposed Expansion of the Oregon 
Caves National Monument, Cave Junction, Oregon

    To: Whom it May Concern: As the retired Visitor Center Manager of 
the Illinois River Valley Center, Cave Junction, Oregon, I would like 
to add my personal support for the proposed expansion of the Oregon 
Caves National Monument from its existing 480 acres to the proposed 
4,000 acres.
    During my 26 \1/2\ years as a Federal Agency Visitor Center 
Manager, Interpretive Ranger and Naturalist/Historian, I have had the 
distinct pleasure of personally guiding grade and middle school 
students on day hikes throughout Southern Oregon from 1996 to 2006.
    The landscape that surrounds the Oregon Caves National Monument 
contain a diverse range of wildlife and plant species that have 
traditionally been part of this great natural landscape for thousands 
of years.
    It is my understanding that the current Grazing Allotment Holder, 
of the grazing allotment that is located at the northeast corner of the 
watershed that serves as the sole water source for the Oregon Caves 
National Monument, is willing to return their allotment to the Federal 
Government provided that they are given some financial settlement. 
Having this change supported by Congress is essential to both the 
safety of visitors and staff at the Oregon Caves National Monument.
    The expansion efforts would also provide the current small Oregon 
Caves National Monument with a larger land area that has been managed 
by the USDA Forest Service--Rogue River-Siskiyou National Forest since 
1907. This would simply be a land exchange from the USDA Forest Service 
to the USDI National Park Service and would provide a significant long 
twit benefit not only to the National Monument but to the entire 
Illinois Valley by providing an expanded opportunity to hike and enjoy 
lands under the expanded Oregon Caves National Monument.
    I urge each member of Congress (U.S. House of Representatives and 
the U.S. Senate) to support the proposed Expansion of the Oregon Caves 
National Monument. It would be a legacy that would be enjoyed by both 
local citizens and visitors alike for years to come.
                                 ______
                                 
         Statement of Rachel Goodman, L.M.T., Cave Junction, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks: As a small business owner in Cave 
Junction and the Illinois Valley here in Southern Oregon, I want to 
submit my approval of S. 1270 (and its twin HR 2889) and support this 
legislation to expand the boundary of the Oregon Caves National 
Monument. This expansion shall increase visitation and improve the 
drinking water at the Oregon Caves Chateau.
    Additionally, it will be a nice touch and a generous gift to the 
American people to do this while we are celebrating the 75th 
Anniversary of the Chateau, the 100th Anniversary of the Oregon Caves 
National Monument and Oregon's Sesquicentennial. Thank you.
                                 ______
                                 
        Statement of Michael Yanase, Yanase Jewelers, Kerby, OR
    To the Senate Committee of Energy and Natural Resources and the 
Subcommittee on National Parks: We are small Southwest Oregon business 
owners living here in the Illinois Valley. We would very much like to 
submit, to you, our approval of S. 1270 (and it's `twin H.R. 2889) and 
support this legislation to expand the boundary of the Oregon Caves 
National Monument. This expansion will increase visitation, improve the 
drinking water at the Oregon Caves Chateau and protect the many 
resources associated with the Monument.
    It would prove a perfect match and a generous gift to U.S. citizens 
for this to happen while we are celebrating the 75th Anniversary of the 
Chateau, the 100th Anniversary of the Oregon Caves National Monument 
and Oregon's Sesquicentennial.
                                 ______
                                 
  Statement of Katherine Mechling, M.D., Clear Creek Family Practice, 
                               Selma, OR
Re: Expansion of the Oregon Caves National Monument

    To: Senate Committee of Energy and Natural Resources and 
Subcommittee of National Parks

    Dear Committee members: I strongly support the expansion of the 
Oregon Caves National Monument for many reasons. This is an area of 
incredible beauty and unique biological diversity. I have personally 
hiked and studied the bird, plant and moss populations of the Caves 
National Monument and surrounding areas, and I have never seen anything 
so rich. It is also clear that there are many discoveries right here to 
be made. All of the most important pharmaceuticals have come from 
discovering new organisms. Some pivotal climate change research is 
happening at the Caves.
    I am the only physician in Selma, Oregon, and I have been the 
medical advisor for the paramedics at the Caves National Monument for 
several years. It is a place where anyone can go, no matter their 
health, and almost always find a place alone in the forest, where they 
can hear the sounds our ears are supposed to hear and smell the smelts 
we are supposed to smell, and feel connected to the life on Earth.
    Please vote to expand the Oregon Caves National Monument.

                                    

      

</pre></body></html>
